<html>
<title> - CUTTING THROUGH THE RED TAPE: OVERSIGHT OF FEDERAL INFRASTRUCTURE PERMITTING AND THE FEDERAL PERMITTING IMPROVEMENT STEERING COUNCIL</title>
<body><pre>[Senate Hearing 115-194]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-194

                CUTTING THROUGH THE RED TAPE: OVERSIGHT
                OF FEDERAL INFRASTRUCTURE PERMITTING AND
          THE FEDERAL PERMITTING IMPROVEMENT STEERING COUNCIL

=======================================================================

                                 HEARING

                               BEFORE THE

                PERMANENT SUBCOMMITTEE ON INVESTIGATIONS

                                 OF THE

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS


                             FIRST SESSION

                               __________

                           SEPTEMBER 7, 2017

                               __________

         Available via the World Wide Web: http://www.fdsys.gov

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                     U.S. GOVERNMENT PUBLISHING OFFICE                    
28-027 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6f081f002f0c1a1c1b070a031f410c000241">[email&#160;protected]</a> 
            

        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
JOHN McCAIN, Arizona                 CLAIRE McCASKILL, Missouri
ROB PORTMAN, Ohio                    THOMAS R. CARPER, Delaware
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             HEIDI HEITKAMP, North Dakota
MICHAEL B. ENZI, Wyoming             GARY C. PETERS, Michigan
JOHN HOEVEN, North Dakota            MAGGIE HASSAN, New Hampshire
STEVE DAINES, Montana                KAMALA D. HARRIS, California

                  Christopher R. Hixon, Staff Director
               Margaret E. Daum, Minority Staff Director
                     Laura W. Kilbride, Chief Clerk
                    Bonni Dinerstein, Hearing Clerk


                PERMANENT SUBCOMMITTEE ON INVESTIGATIONS

                       ROB PORTMAN, Ohio Chairman
JOHN McCAIN, Arizona                 THOMAS R. CARPER, Delaware
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             HEIDI HEITKAMP, North Dakota
STEVE DAINES, Montana                GARY C. PETERS, Michigan

           Andrew Dockham, Staff Director and General Counsel
                John Kilvington, Minority Staff Director
                      Kate Kielceski, Chief Clerk
                            
                            
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Portman..............................................     1
    Senator Carper...............................................     5
    Senator McCaskill............................................     7
    Senator Tester...............................................     8
    Senator Heitkamp.............................................     9
Prepared statements:
    Senator Portman..............................................    41
    Senator Carper...............................................    45

                               WITNESSES
                      Thursday, September 7, 2017

Marc S. Gerken, Chief Executive Officer/President, American 
  Municipal Power, Inc...........................................    10
Brent Booker, Secretary-Treasurer, North America's Building 
  Trades Union...................................................    12
William L. Kovacs, Senior Vice President, Environment, 
  Technology, and Regulatory Affairs, U.S. Chamber of Commerce...    14
Scott Slesinger, Legislative Director, Natural Resources Defense 
  Council........................................................    15
Janet Pfleeger, Acting Executive Director, Federal Permitting 
  Improvement Steering Council...................................    27
Terry L. Turpin, Director, Office of Energy Projects, Federal 
  Energy Regulatory Commission...................................    29
Robyn S. Colosimo, Assistant for Water Resources Policy, Office 
  of the Assistant Secretary of the Army (Civil Works)...........    30
Gary Frazer, Assistant Director, Ecological Services, U.S. Fish 
  and Wildlife Service, U.S. Department of the Interior..........    31

                     Alphabetical List of Witnesses

Booker, Brent:
    Testimony....................................................    12
    Prepared statement...........................................    64
Colosimo, Robyn S.:
    Testimony....................................................    30
    Prepared statement...........................................   124
Frazer, Gary:
    Testimony....................................................    31
    Prepared statement...........................................   127
Gerken, Marc S.:
    Testimony....................................................    10
    Prepared statement...........................................    47
Kovacs, William L.:
    Testimony....................................................    14
    Prepared statement...........................................    70
Pfleeger, Janet:
    Testimony....................................................    27
    Prepared statement...........................................   103
Slesinger, Scott:
    Testimony....................................................    15
    Prepared statement...........................................    94
Turpin, Terry L.:
    Testimony....................................................    29
    Prepared statement...........................................   114

                                APPENDIX

Level of Service chart referenced by Senator Portman.............   130
Statement for the Record from Associated General Contractors of 
  America........................................................   132
AGC's Flowchart of Environmental Approvals for Infrastructure 
  Projects.......................................................   179
Mr. Slesinger response to Senator Carper's question..............   187
Mr. Frazer response to Senator Portman's question................   265
Responses to post-hearing questions for the Record from:
    Mr. Booker...................................................   181
    Mr. Kovacs...................................................   182
    Mr. Slesinger................................................   185
    Ms. Pfleeger.................................................   189
    Mr. Turpin...................................................   199
    Ms. Colosimo.................................................   203
    Mr. Frazer...................................................   264

 
                     CUTTING THROUGH THE RED TAPE:
                  OVERSIGHT OF FEDERAL INFRASTRUCTURE
   PERMITTING AND THE FEDERAL PERMITTING IMPROVEMENT STEERING COUNCIL

                              ----------                              


                      THURSDAY, SEPTEMBER 7, 2017

                                   U.S. Senate,    
              Permanent Subcommittee on Investigations,    
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Rob Portman, 
Chairman of the Subcommittee, presiding.
    Present: Senators Portman, Daines, Carper, Tester, 
Heitkamp, and Peters.
    Also present: Senator McCaskill.

              OPENING STATEMENT OF SENATOR PORTMAN

    Senator Portman. We are going to go ahead and get started. 
Senator Carper is on his way. He had another commitment. As 
Senator Tester and I were just talking about, this is one of 
those mornings where there are five or six different competing 
Committee hearings and meetings on our agendas, and I 
appreciate Senator Tester being here, and I told him we want to 
get to his questions as soon as we can.
    We have a great panel here in a moment and then a second 
great panel, so we are blessed to have two really fulsome 
panels. I have talked to Senator Carper about it this morning. 
We are looking forward to getting this testimony because it is 
so important for the oversight that we are doing over 
infrastructure and permitting.
    The hearing will officially come to order. Our 
infrastructure, as all of us know, is outdated. It is not just 
outdated; it is also in some cases unsafe. In my hometown of 
Cincinnati, we have an issue with a bridge that is actually not 
just outdated and aging but very unsafe for motorists. It is 
also hurting our economy, and it is hurting our ability to 
create jobs and to raise wages.
    Reports consistently show that infrastructure in the United 
States is lagging behind other developed countries, so compared 
to other countries we are way behind. And one reason always 
cited is the time and cost to get a green light to build 
something.
    The World Bank ranks the United States 39th in the world 
for dealing with construction permits. And, by the way, that is 
down from 26th in the world in 2008. So we are getting worse. 
Other countries are getting better.
    In its 2017 Infrastructure Report Card, the American 
Society of Civil Engineers gave the United States a 
``cumulative GPA'' of 
D-plus ranging from a B for Rail to D for roads to D-minus, I 
think, for Transit. Those are not the kinds of grades you would 
want to bring home to your parents.
    So we have a problem, and it is clear we have to rebuild. 
We have to rebuild our aging infrastructure. We have to improve 
those roads and bridges, pipelines, ports, waterways, and 
manufacturing facilities.
    While underway, while these projects are being built, of 
course, they create great jobs. We appreciate the Building 
Trades being here today to talk about that.
    But also, after they are completed, improved 
infrastructure, of course, encourages economic growth and 
business startups, gives the economy an important shot in the 
arm.
    The President's budget, as you may have seen, calls for a 
significant investment in infrastructure, $200 billion in 
funding that can be leveraged for a $1 trillion investment into 
highways, ports, transit, broadband, energy, and other 
infrastructure projects.
    Given the very serious budget problems our Nation faces--it 
is going to be a very tight budget--it is going to be tough to 
find that funding. But we have to be sure that whatever funding 
set aside for infrastructure development is used in the most 
efficient way possible. We want to stretch that dollar as far 
as we can.
    In order to get the most out our investment, we have to fix 
the process the Federal Government uses to approve 
infrastructure projects.
    Let me give you one example. Right now, when a project 
sponsor wants to build a new source for hydropower, that 
sponsor has to brace itself for a permitting process that can 
typically last 10 years. Capital is just not that patient.
    I first got involved in this issue about six years ago with 
Senator McCaskill because American Municipal Power (AMP), who 
is here to talk to us today, came to me to talk about their 
frustration with the hydropower plant on the Ohio River, the 
R.C. Byrd Power Plant. At that point, I think it had taken them 
about six years, and, of course, they still had not completed 
it. I am glad, Marc Gerken, that you are here today to talk 
about that. The Chief Executive Officer (CEO) of American 
Municipal Power is going to be talking about why it has taken 
so long to get permitted, what the impact has been, and what is 
involved in terms of additional costs for that project.
    How many of us would be willing to have that kind of lag 
time and be able to move forward with a project? It is the 
reason it is just so important.
    In 2013, Senator McCaskill--who has just joined us--and I 
introduced legislation called the Federal Permitting 
Improvement Act to help streamline the permitting process. In 
2015, Congress enacted that legislation as part of Title 41 of 
the Fixing America's Surface Transportation Act (FAST Act). Now 
we call it ``FAST-41.'' That bipartisan project, by the way, 
with the support of Senator Carper and Senator Tester--Senator 
Peters, I do not think you were here yet, but this entire 
Committee voted for it--one person did not vote for it, one 
Republican. It was a 12-1 vote. She is no longer with the 
Committee. But the point is this was a bipartisan effort, and 
one reason it was bipartisan and one reason it was so popular 
and we were able to get it done is because we had great help 
from the outside. And some of those folks are here today.
    We recognize that the permitting process is really 
important. Projects should be built the right way and need to 
take care of the environment and follow the law. We know 
regulations are needed. That is not the issue here.
    But too often, permitting requirements from different 
agencies overlap each other, conflict with each other, and 
there is duplication. This leads to the delays that have 
hamstrung our ability to improve economic growth and job 
creation.
    Our focus on FAST-41 was very simple-to address these 
problems. The Chamber of Commerce, the Natural Resources 
Defense Council (NRDC), and the Building Trades Unions all 
worked with us, as well as others--the National Association of 
Manufacturers and others--and, these outside groups were 
critical to us getting the legislation through.
    By the way, the NRDC, the Chamber, and the Building Trades 
are all here this morning to share their perspectives. We were 
grateful for their critical support at that time, and we are 
grateful for their input and insights today.
    One problem we all identified was a lack of accountability, 
and FAST-41 created this process called ``covered projects'' 
that assigns one accountable agency to serve as the lead agency 
on each project. That helps.
    The agency gets together with all of the other relevant 
agencies to come up with a permitting timetable. The agencies 
have to post that timetable on a Permitting Dashboard so the 
project sponsor and everyone else can see what the timelines 
look like.
    If that agency misses a deadline, it has to explain why. We 
believe that more transparency leads to greater accountability, 
and that is why that is included.
    FAST-41 also created a Council called the ``Federal 
Permitting Improvement Steering Council (FPISC)'' that sits at 
the Office of Management and Budget (OMB) to oversee the 
permitting process and helps resolve conflicts between the 
agencies.
    FAST-41 was designed to leverage that accountability you 
get from all of this--the transparency, the Council, the lead 
agency--to increase efficiency in the permitting process.
    As some of you know, I have expressed concern about 
implementation of FAST-41, as has Senator McCaskill and others. 
I would like to touch quickly on three of these we are going to 
address today.
    First, of course, is the Permitting Council itself. 
Although it has been making progress recently and I commend 
them for that, I am concerned about how long it has taken to 
get the structure off the ground and get this in place.
    This goes back to 2015, and just now really are we getting 
going. The Obama Administration failed to appoint an Executive 
Director for the first six months that the Council existed.
    In January, President Obama's Executive Director stepped 
down during the transition to a new Administration, 
understandably, and Janet Pfleeger, who has been serving 
admirably as Acting Executive Director and who we will hear 
from today, stepped in to fill the gap. But we still do not 
have a permanent Executive Director, and we need one.
    We have sent suggestions of people who the Administration 
should consider for the role, both from the public sector and 
the private sector, qualified people.
    For the Council to be truly effective and fulfill its 
mandate, we need a permanent Executive Director in place now, 
and I know Janet agrees with that.
    Second, the Council needs sufficient funding. It is 
currently funded at $4.5 million. The President's budget 
requested $10 million for its operations, which the Council has 
indicated to us is the minimum amount needed to do the job that 
Congress has given them. The minimum amount. The House budget 
proposes funding at only $1 million. Again, $10 million being 
the minimum.
    Senate appropriators, in our view, must fully fund the 
Council and its efforts for it to function the way Congress 
intended.
    Without objection, I want to enter into the record a level 
of service chart from the Council\1\ that indicates how much 
money they would need to perform the services that have been 
authorized by our legislation.
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Portman appears in the Appendix 
on page 130.
---------------------------------------------------------------------------
    I want to see the Council succeed in its mission to 
streamline permits and be able to expand to improve the process 
for more projects. It needs sufficient funding to be able to 
accomplish those goals.
    Finally, third, the agencies that sit on the Council need 
to be fully bought into the process and cooperate with the 
Council's goals.
    I appreciated the opportunity address the Council at its 
very first meeting under this Administration. I was glad to see 
broad participation at that meeting, but I conveyed the message 
there and I will convey it now: Agencies on the Council need to 
be fully engaged for this process to work. They need to be 
fully engaged in terms of providing the input for the 
Dashboard, and we will talk a little more about that. I know, 
Bill, you have some information on that.
    The Obama Administration released guidance on its way out 
the door that said independent agencies like the Federal Energy 
Regulatory Commission (FERC) and the Nuclear Regulatory 
Commission (NRC) do not have to fully comply with FAST-41.
    That is not what the law says. Independent agencies are 
expected to fully comply with this law.
    Bill Kovacs from the Chamber has provided in his written 
testimony a useful chart, I think, that examines whether 
agencies have met their statutory requirements or not.
    For some agencies, including the NRC and the Housing and 
Urban Development (HUD), the Department of Agriculture (USDA), 
and Interior departments, the Chamber assesses that their 
compliance with their statutory obligations to be ``minimal at 
best.'' So we have to do better.
    I am eager to hear about that and hear what the agencies 
have to say in our second panel about participation.
    The goal of this hearing is to determine how we can stretch 
that Federal dollar to get the most bang for the buck, how we 
can rebuild our aging infrastructure and do it more effectively 
and more efficiently.
    If we do so, we are going to give the economy an important 
boost. We are going to create better jobs. We are going to 
create higher wages. That is all of our goals.
    I am looking forward to hearing from the witnesses today 
and how they think the FAST-41 process is going and what we can 
do to help achieve those goals.
    With that, I would like to give the opportunity to my 
Ranking Member, Senator Carper, who I spoke about earlier. I 
said, Senator Carper, that we all have five or six things going 
on right now, and you were going to be a couple of minutes 
late. I really appreciate his support of FAST-41 over the years 
and his willingness to work with me on a good hearing today.
    Also, if it is all right, we would like to give other 
Members an opportunity to speak, starting with Senator 
McCaskill as the lead sponsor, if they would like to give a 
brief opening statement. Then on my questions, once we hear 
from the panelists, I am going to defer my questions until the 
end so that those who came early, particularly Senator Tester, 
who was the first here, have a chance to ask their questions. 
Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thank you. Thank you so much, Mr. Chairman. 
Our thanks to you and especially to Senator McCaskill for the 
leadership that both of you have shown on what I think is an 
important issue and what I believe we all believe is an 
important issue.
    One of the many things that I think we agree on is the need 
to invest in our Nation's infrastructure and put more people to 
work on projects that will help our economy continue to grow, 
for example, by building and rebuilding roads, highways, and 
bridges, but also by addressing the need to invest in our 
railroads, our airports, our ports, and broadband deployment 
across especially rural parts of our Nation. And water and 
wastewater, oftentimes we short-change water and wastewater. 
One of the key ingredients in job creation and job preservation 
is to make sure that we have water, clean water, available and 
cost-efficient ways of dealing with our wastewater.
    But today's hearing will focus on the work that occurs 
before we put shovels in the ground to get a project started.
    As a long-time member--and now the Ranking Member--of the 
Environment and Public Works (EPW) Committee, I have thought a 
lot about how we can build infrastructure projects, build them 
smarter, and build them more cost effectively. I have also 
thought a lot about how well the rules and permitting processes 
we have in place work and how they sometimes do not work as 
well as they could and should.
    There are times when coordination between the agencies 
responsible for vetting a project is not done well and projects 
are delayed without good reason. So I have supported reasonable 
changes designed to improve the permitting process and done so 
in both of the last two transportation infrastructure laws we 
have adopted, as well as the last two Water Resources 
Development Act laws.
    One of my top priorities at EPW is to ensure that these 
initiatives are implemented fully and effectively while 
ensuring that we do not cause needless delays in the ultimate 
implementation of the measures that may have already been 
adopted.
    A March 2017 report by the U.S. Department of 
Transportation's Office (DOT) of Inspector General (IG) 
provides us a cautionary tale about enacting new streamlining 
measures before the old ones are given a chance to work. That 
report found that some of what we did in the FAST Act--our most 
recent transportation law--may have actually delayed the 
implementation of what we did to speed projects along just a 
few years ago with our 2012 legislation.
    In addition, it has become clear through our work at EPW 
that there are a number of permitting changes included in the 
last two versions of the Water Resources Development Act that 
have not even begun to be implemented by the U.S. Army Corps of 
Engineers (USACE).
    It is critical that the provisions we enact in this area be 
fully implemented so we can understand the impact that they 
will have before we look to do a whole lot more. To be able to 
do that, we need effective oversight like we are doing today. 
This is important, and our panels' presence here today to 
testify before us is hugely important.
    That brings me to the main topic we will be discussing at 
this hearing: the provisions that our Chairman and Ranking 
Member McCaskill were able to include in the FAST Act to better 
coordinate agency permitting activities and improve 
transparency for certain major infrastructure projects.
    There is clear value in the reforms set in motion by the 
Portman-McCaskill law and the Federal Permitting Improvement 
Steering Council that it created, and I look forward to hearing 
more details today about how all of it is working. I am 
especially interested in learning about how the transparency 
the new law offers regarding agency permitting timelines can 
speed things along and about how the sharing and adoption of 
best practices for project review can help agencies work 
smarter.
    That said, it has become clear to me in examining the work 
that our Chairman and Ranking Member have done that strong and 
effective senior leadership at the Council and at the agencies 
responsible for a given project is key. It is important then 
that the President appoint a skilled and capable permanent 
Executive Director for the Council who is equipped with the 
authority necessary to push projects through to completion.
    Before we hear from our witnesses, Mr. Chairman, I just 
want to briefly make a couple points and then close.
    First, it is important to note that while we all want 
permitting decisions to occur quickly--God knows I do--the 
rules and processes we have in place are not always just ``red 
tape.'' They are intended to help agencies make good decisions 
that protect public health and natural resources. They also 
ensure that State, local, and tribal stakeholders have a say. 
If this work is well coordinated, it can improve outcomes, 
reduce costs, and identify potential conflicts early on. A 
strong Federal Permitting Improvement Steering Council can help 
make sure that happens more often.
    Second, while environmental reviews are often blamed for 
project delays--and in some cases, they are to blame--studies 
have also shown that projects are usually held up for other 
reasons--lack of capital funding for large projects being chief 
among them.
    Similarly, limited resources at permitting agencies like 
the Environmental Protection Agency (EPA) and the U.S. Fish and 
Wildlife Service (FWS) can diminish their ability to engage 
early and complete their work on time. So we should work to 
ensure that all of the agencies involved in getting 
infrastructure projects off the ground, including the Federal 
Permitting Improvement Steering Council, have the resources 
they need to do their jobs well.
    Lastly, in closing, Mr. Chairman, I want to congratulate 
you and Senator McCaskill for the bipartisan work that went 
into the permitting reforms we are going to be discussing 
today. I know how difficult it can be to get consensus on these 
issues. The two of you deserve our thanks for authoring 
legislation that promises to create jobs while building and 
rebuilding our infrastructure more quickly, all with the 
support of the business community, labor unions, and the Obama 
Administration.
    So my thanks for holding the hearing. We look forward to 
hearing from all our witnesses. Thanks so much.
    Senator Portman. Thank you, Senator Carper. I appreciate 
that.
    Senator McCaskill, do you have an opening statement you 
would like to make?

             OPENING STATEMENT OF SENATOR MCCASKILL

    Senator McCaskill. Just briefly, Mr. Chairman. First of 
all, thank you for having this hearing. This hearing is a 
symptom of a disease that runs rampant, and that is, we pass 
legislation to correct a problem, and we check back two years 
later, and the legislation has not had the impact that we had 
hoped it would have. You have outlined I think very thoroughly 
the issues that we have, and some of it is delay. Some of it is 
calcified processes that sometimes changing those processes 
require more than a bill being signed by the President. 
Sometimes it takes continued pressure, continued oversight, 
continued aggressive efforts at looking at what is happening, 
why is it not happening, and what can we do to really make this 
law have the impact that it has the potential to make.
    We worked hard getting this across the finish line. We did 
what you are supposed to do in the Senate. We had lots of folks 
upset about various things, and we kept working it and working 
it and working it and finding agreement and finding agreement 
until we got a bill that had broad support in the U.S. Senate 
on a bipartisan basis.
    So what a shame it would be, and I am glad that we have 
cleared up the confusion that the President's first Executive 
Order (EO) created. That was not a good moment where all of a 
sudden we had an Executive Order being issued that clearly did 
not even envision or understand the current law. So now we have 
a corrected Executive Order which I think puts us in a much 
better place. But I want to echo your comments about how 
important it is that we get a permanent Director of the 
Permitting Council.
    And then I want to say to all the witnesses that are here, 
I hope I will have a chance to question. As you know, Senator 
Portman and Senator Carper, we have an important Finance 
Committee hearing this morning on the Children's Insurance 
Program that I need to also attend. But when I read about AMP 
and the problems they have had with trying to get Fish and 
Wildlife and FERC on the biological opinion and then to have 
the Army Corps basically take their football and go home and 
say that is not going to work, excuse me, that is not what this 
law says. This law says the Permitting Council at that moment 
steps in and says, ``No, you are not going to take your 
football and go home. We are not going to make them go through 
this again.'' This is why we passed this law.
    So what I really want to hear about are--even if they are 
anecdotal--these examples of where the law is not working the 
way it is supposed to work and what we need to do, what 2-by-4 
we need to pick up to exert pressure against the Army Corps or 
against any of the others, whether it is FERC or whether it is 
Fish and Wildlife, National Park Services, whatever it is, 
wherever we have to exert that pressure, I think it is really 
important. I know that Senator Portman is committed to that, 
and, frankly, I enjoy doing that.
    So give me a chance to go to work and try to make this bill 
what we had hoped it would be, and I look forward to learning 
more about the problems that everyone is facing and the fits 
and starts we have had in getting this in place. But I hope two 
years from now, for a variety of reasons, I hope two years from 
now I will be back here with you, Senator Portman, to have a 
hearing talking about the successes we have had with FAST-41, 
because I think those successes are within reach now, and thank 
you very much.
    Senator Portman. Thank you. It is good to have a partner 
who likes to pick up that 2-by-4 on oversight. Not everybody 
does. I do think this hearing alone has caused more activity 
and I think we are heading on the right track. Senator Tester.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. Yes, thank you, Mr. Chairman. I want to 
thank you and the Ranking Member for holding this hearing. I 
can do the math, and we have got four people on the next panel, 
so I am not going to be able to ask questions. I will try to 
get back. But I do hope that some of you, if not all of you, 
address this issue.
    Look, we have mines that, whether they get permitted or 
not, they are just not getting any answers in Montana. We have 
tree cuts that regularly go to court and regularly lose. Both 
those things are disturbing. But if you take a look at the lack 
of manpower in these agencies and the fact that the Forest 
Service, for example, spends half their money on fighting 
fires--this year, I bet it is north of two-thirds fighting 
fires--you have to ask yourself: Do we have the manpower to be 
able to permit these projects? Are we funding these agencies? 
And is the money going to what it is for and, that is, working 
on whether it is permitting a mine, making sure the mitigation 
is there for water and wildlife, or a tree cut, same kind of 
thing, restoration that is involved in it? Or are we putting 
the agencies in a situation where we are all frustrated with 
the permitting process, but they simply do not have the 
resources that they need to be able to do the permitting 
process in a timely manner that is done right?
    And so I hope you address that. I think we are all 
frustrated on this side of the rostrum about how long it takes, 
because we have a project in each one of our States that takes 
far too long and should have been permitted not years but maybe 
decades ago. And so hopefully we will get to that, and I think 
in the end, your testimony today is going to be critically 
important in allowing us to move forward, so thank you.
    Senator Portman. Senator Peters, do you have an opening 
statement? We will get to the witnesses otherwise. Senator 
Heitkamp.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Just very quickly, I wanted to make sure 
that I stopped in to impress upon everyone here that we are 
serious about this process. As Senator McCaskill has outlined, 
this is a bipartisan fix that does not seem to be working very 
well. Both Senator Tester and I have a very important hearing 
in Banking on North Korean sanctions; otherwise, we would be 
here permanently asking these questions. But we trust our 
colleagues to do a great job and to work with us in following 
up on what needs to be changed, if anything, in the legislation 
and how we should continue our commitment for streamlining this 
process, because not only is it time, it is money. Time is 
money. And as a result, money is short. We have infrastructure 
projects we want to do. We want to make sure when we do an 
infrastructure bill, which I hope we will, that we have this 
problem taken care of.
    Thank you, Mr. Chairman, for holding this hearing.
    Senator Portman. Thank you. Let us go ahead and call the 
witnesses. We are going to call our first panel now.
    Marc Gerken is the chief executive officer of American 
Municipal Power, which is the sponsor of the R.C. Byrd 
Hydropower Project on the Ohio River I talked about. Please 
come forward and have a seat.
    Brent Booker is secretary-treasurer of North America's 
Building Trades Unions (NABTU). I appreciate your being here, 
Brent.
    Bill Kovacs is senior vice president for Environment, 
Technology, and Regulatory Affairs at the United States Chamber 
of Commerce.
    Scott Slesinger is legislative director of the Natural 
Resources Defense Council.
    I appreciate all of you being here today. As I said 
earlier, it is a distinguished panel that was very helpful to 
us in getting this legislation passed and shares with us this 
passion to be sure it is properly implemented.
    It is the custom of this Subcommittee to swear in all the 
witnesses, so at this time, I would ask you, now that you just 
have gotten seated, to please stand and raise your right hand. 
Answer in the affirmative. Do you swear that the testimony you 
will give before this Subcommittee will be the truth, the whole 
truth, and nothing but the truth, so help you, God?
    Mr. Gerken. I do.
    Mr. Booker. I do.
    Mr. Kovacs. I do.
    Mr. Slesinger. I do.
    Senator Portman. Thank you. Please be seated. Let the 
record reflect the witnesses answered in the affirmative.
    We are going to use a timing system today, gentlemen, so 
all of your written testimony will be printed in the record in 
its entirety, but we are going to ask you to limit your oral 
testimony to five minutes, and we are going to enforce that.
    Mr. Gerken, we would like to hear from you first.

    TESTIMONY OF MARC S. GERKEN,\1\ CHIEF EXECUTIVE OFFICER/
           PRESIDENT, AMERICAN MUNICIPAL POWER, INC.

    Mr. Gerken. Thank you. Good morning, Chairman Portman, 
Ranking Member Carper, and distinguished Members of the 
Subcommittee. My name is Marc Gerken. I am CEO of American 
Municipal Power, headquartered in Columbus, Ohio. I am pleased 
to have this opportunity to testify about AMP's regulatory 
experiences developing new hydro infrastructure this morning 
and be a sponsor of a project in the initial Federal Permitting 
Improvement Infrastructure Steering Committee inventory. I 
commend the Subcommittee for holding this hearing and for 
looking for needed ways to cut red tape in the licensing and 
permitting process.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Gerken appears in the Appendix on 
page 47.
---------------------------------------------------------------------------
    AMP is a nonprofit wholesale power supplier and service 
provider for 135 municipal member systems across nine States, 
including the home States of Senators Portman, Carper, Paul, 
and Peters. AMP is one of the largest public power joint action 
agencies in the country, and we have a diverse portfolio, 
including a mix of fossil fuel as well as renewable resources.
    We have a unique perspective on infrastructure development 
and regulatory processes as we are in the process of completing 
the largest development of new run-of-the-river hydropower 
projects in the United States today. Our four new projects are 
located at existing Army Corps of Engineers dams along the Ohio 
River in the States of Kentucky and West Virginia. Our projects 
represent more than 300 megawatts of emission-free, long-life 
generation, and a $2.6 billion investment.
    Hydropower projects are expensive to build and typically 
begin above market as resources; however, their operational, 
economic, and environmental attributes make hydropower an 
excellent investment long term.
    There is also significant untapped potential of new 
hydropower, and that is detailed in the Department of Energy 
(DOE's) recent hydro vision report published last year.
    The siting and permitting processes of any new generation 
are not for the faint of heart. The licensing and permitting 
processes for hydropower are especially arduous and typically 
take more than a decade, considerably longer than most other 
electric generation.
    While FERC is the lead agency, approvals for hydropower 
development must come from a variety of Federal and State 
agencies and require separate permitting by the Army Corps and 
State resource agencies.
    AMP just received the FERC license for the potential fifth 
project, which would be located at the R.C. Byrd Gallia Locks 
and Dam in the State Ohio. We began that licensing process in 
2007. The final license was issued a decade later on August 30, 
2017, largely due to delays associated with issues raised by 
the Corps of Engineers.
    The R.C. Byrd Project has been part of the initial Federal 
Permitting Improvement Steering Council inventory. To date, our 
experience with the permitting Dashboard and the FAST-41 
processes have shown improvements in timeliness, 
predictability, and transparency. However, it is critical that 
these improvements continue as the R.C. Byrd Project 
transitions from licensing to permitting.
    In Appendix A to my written testimony is the detailed 
timeline of the R.C. Byrd Project licensing process, which 
illustrates the stop, start, and repeat nature of the agency 
interactions.
    From an AMP perspective, securing financing has not been a 
challenge to our infrastructure development efforts. Regulatory 
uncertainty and the associated time delays have been. Securing 
the FERC license for our hydropower projects has been a 
milestone step but, unfortunately, has only signaled the start 
of the new process negotiating many of the same elements 
debated during the licensing process with the Corps of 
Engineers in the 408 and 404 process. This needs to change.
    As a developer, you must be passionate about the benefits 
that will result from your projects and have supportive 
participants and flexible financing. One of the key challenges 
is to keep the costs down and stay on schedule. As said 
earlier, the old adage is, ``Time is money.'' The regulatory 
process plays a critical role in the project schedule and 
ultimately can drive whether or not the project comes to 
fruition.
    So much uncertainty exists in both the outcomes and 
timeliness in the Corps permitting process, it is extremely 
difficult for a developer to build construction schedules and 
place equipment orders with any confidence. The gauntlet that 
the developer must endure and the cost of delays and 
disincentives to hydropower investments are huge.
    For instance, we estimate that the delays associated with 
the Corps' permitting in our four projects ended up costing AMP 
and our members approximately 50 basis points on our financing 
of $1.4 billion while waiting for the Corps 408 and 404 
process. The added transparency of the FPISC process and having 
an impartial referee to help identify impediments in the 
Federal regulatory process will be extremely beneficial. The 
FPISC process and Permitting Dashboards are solid concepts that 
should be more transparent to the developers and agencies, and 
it will be an important process that matures and transitions 
from the initial investment inventory to the retained scope.
    With that, Mr. Chairman, I look forward to questions.
    Senator Portman. Thank you. You came in at five seconds 
over your time. I like that. Mr. Booker.

   TESTIMONY OF BRENT BOOKER,\1\ SECRETARY-TREASURER, NORTH 
                AMERICA'S BUILDING TRADES UNIONS

    Mr. Booker. Good morning, Chairman Portman, Ranking Member 
Carper, Senator McCaskill. My name is Brent Booker, secretary-
treasurer of North America's Building Trades Unions, and on 
behalf of the nearly three million construction workers in 
North America that I am proud to represent, I would like to 
thank you for allowing me to testify before this Subcommittee 
on an issue that directly impacts building and construction 
trades men and women across America, which is permitting 
reform.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Booker appears in the Appendix on 
page 64.
---------------------------------------------------------------------------
    America's labor leaders and businesses agree: The 
permitting process for major U.S. infrastructure projects must 
be modernized to make it more efficient, more accountable, and 
more transparent. These projects employ hundreds of thousands 
of building trades members, and the sooner projects can break 
ground, the sooner our members can get to work applying their 
crafts and providing for their families.
    Chairman Portman, your work and leadership along with 
Senator McCaskill on the Federal Permitting Improvement Act 
demonstrated a steadfast commitment to cutting red tape in 
order to get much needed infrastructure projects moving 
forward. NABTU, and, in fact, the entire building trades 
community, is extremely grateful that these efforts resulted in 
Title 41 of the FAST Act, which will greatly streamline the 
Federal permitting process, leading to more job opportunities 
for construction workers across this country.
    We are pleased that permitting reform is an issue on which 
there is a bipartisan recognition that steps must be taken to 
address the inequities in the process. In fact, in ``Road Map 
to Renewal: Invest in Our Future, Build on Our Strengths, Play 
to Win,'' President Obama's Jobs Council found that an 
unnecessarily complex Federal permitting process is a major 
barrier to capital investment and job creation. They also found 
that other countries expedite the approval of large projects 
better than the United States.
    The general problem with the permitting process is this: 
Project owners, whether it is the public or private sector, 
oftentimes find the Federal permitting process to be overly 
burdensome, slow, and inconsistent. Gaining approval for a new 
bridge or factory typically involves negotiating a complex maze 
of review by multiple Federal agencies with overlapping 
jurisdictions and no real deadlines.
    Often, no single Federal entity is responsible for managing 
the process. Even after a project has cleared extensive review 
and a permit is granted, lawsuits and judicial intervention can 
stymie effective approval for years--or, worse, halt a half-
completed construction project in its tracks.
    By some estimates, a 6-year delay in starting construction 
on public works, including the effects of unnecessary pollution 
and prolonged inefficiencies, costs this Nation over $3.7 
trillion.
    The reforms instituted in FAST-41 are designed to take 
steps to rectify this problem. We believe the creation of the 
Federal Permitting Improvement Council is a long overdue step 
in the right direction. We believe the new procedures set forth 
in FAST-41 to standardize interagency coordination and 
consultation will ultimately lead us toward the better 
coordination among agencies and deadline setting that has been 
lacking in the permitting process and frustrating construction 
owners, contractors, and workers for years. As an organization 
that relies upon standards, we welcome this.
    Furthermore, by tightening litigation timeframes 
surrounding permitting decisions, major infrastructure projects 
will no longer be subject to the seemingly never-ending cycle 
of lawsuits project opponents advocate.
    On this point I want to be very clear: North America's 
Building Trades Unions support responsible regulations that 
protect the environment, public health, and worker safety. We 
believe they are critical to responsible infrastructure 
development that lasts for decades and allows for future 
generations to use these invaluable assets. What we are opposed 
to is the constant stream of endless lawsuits that project 
opponents rely upon because they cannot defeat a project on the 
merits of the project itself. When projects are tied up in the 
courts, our members are not working, they are not putting food 
on the table, and they are not providing for their families.
    The enhanced transparency resulting from the Federal 
Infrastructure Permitting Dashboard is also a welcome 
development in the construction industry. We believe displaying 
project timelines and providing important and detailed 
information on each project on such a public forum will bring 
about increased accountability to government agencies involved 
in the permitting process and will allow for the general public 
to access information that will inform their understanding and 
appreciation of the impact of these projects on their 
communities.
    One such project currently listed on the Dashboard that 
will employ building trades members is the Atlantic Coast 
Pipeline, a vitally important infrastructure project that will 
ensure the economic vitality, environmental health, and energy 
security of the Mid-Atlantic region.
    FERC is the lead Federal agency responsible for overseeing 
the environmental review and approval process for this project. 
In coordination with more than a dozen other local, State, and 
Federal agencies, FERC will conduct a thorough and exhaustive 
review to evaluate all potential environmental, cultural, 
socioeconomic, and other impacts of the project. Throughout the 
process, FERC and other agencies will carefully analyze all the 
potential impacts to the land, air, and water quality, wildlife 
and other resources to ensure the project has adopted all the 
necessary measures to protect the environment, landowners, and 
public safety.
    The environmental review process provides numerous 
opportunities for the public to provide meaningful input to the 
agencies, including more than two dozen public meetings and 
multiple public comment periods. Over the last two years, the 
FERC has received more than 35,000 public comments from 
landowners, residents, businesses, and organizations in 
communities across the region.
    The Atlantic Coast Pipeline will be an energy provider, job 
creator, and economic game changer for the region. This 
underground natural gas transmission pipeline will transport 
domestically produced, clean-burning natural gas from West 
Virginia to communities in Virginia and North Carolina that 
lack the infrastructure needed. Along the way, the pipeline 
will help the region lower emissions, improve air quality, grow 
local economies, and create thousands of new jobs in 
manufacturing and other industries. Projects such as this one 
are exactly the type of major infrastructure permitting reform 
moves forward.
    With that, I thank you for the opportunity to be here and 
look forward to any questions you may have.
    Senator Portman. Thank you, Mr. Booker. I really appreciate 
your being here. Bill Kovacs.

   TESTIMONY OF WILLIAM L. KOVACS,\1\ SENIOR VICE PRESIDENT, 
 ENVIRONMENT, TECHNOLOGY, AND REGULATORY AFFAIRS, U.S. CHAMBER 
                          OF COMMERCE

    Mr. Kovacs. Mr. Chairman, Ranking Member Carper, and 
Members of the Committee, thank you for inviting me to testify 
on the implementation of FAST-41.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Kovacs appears in the Appendix on 
page 70.
---------------------------------------------------------------------------
    FAST-41 creates a new governance structure to streamline 
the Federal environmental review process for infrastructure 
projects that historically have had a very poor track record on 
meeting time limits and very little transparency.
    The FAST-41 process includes clear procedures for 
decisionmaking, developing project schedules, coordinating 
agency reviews, mechanisms for State participation, a dashboard 
to ensure transparency, and it reduces the statute of 
limitations for legal challenges to final agency action from 
six years to two years.
    The passage of FAST-41 was a bipartisan achievement, led by 
Senators Portman and McCaskill, and its implementation 
continues to be bipartisan. Upon enactment, President Obama 
transferred funds from the General Services Administration 
(GSA) to provide operational support for the new law, appointed 
an Executive Director, and secured staff for the program. 
Between the enactment of FAST-41 on December 14, 2015, and 
today, the Federal Permitting Council has established an 
initial inventory of 35 covered projects on its Dashboard, 
developed guidance on how to carry out the program 
responsibilities, released recommended performance schedules, 
prepared for Congress its Fiscal Year (FY) 2016 annual report, 
and it is currently developing regulations to implement the 
project fee provisions of the statute.
    Let me stop here for a second. This is very important to 
what Senator Tester was saying, because the fee provisions are 
essential to the operation. There are three ways money can come 
in: transfers from GSA and other agencies, congressional 
appropriations, and the fee structure. And I know some have 
asked, Well, why a fee structure? Within the Federal 
Government, there are $64 billion a year in fees that are 
collected. So it is not something that is out of the ordinary. 
It is actually very common, and I believe FERC is completely 
funded by fees.
    Continuing this bipartisan support for FAST-41, President 
Trump's budget sought $10 million for the program. 
Unfortunately, only $1 million is currently in the House 
Subcommittee appropriations bill.
    More important, however, President Trump's August 24th 
Executive Order 13807 concerning Federal permitting clearly 
supports the FAST-41 process and extends many of its expedited 
procedures to non-covered procedures, which is going to be 
essential, especially as you have a lot of projects that do not 
hit the $200 million threshold. The Executive Order also 
directs GSA to provide organizational support to the Council, 
including budget support.
    While permit streamlining has gotten off to what I think is 
a solid start, there are a few barriers that need to be 
mentioned. Again, I will reiterate the position of the 
Executive Director is vacant. It should be filled immediately, 
and the reason is that is the person that decides what are the 
covered projects, selects the lead agency, manages the 
dashboard, and mediates initial disputes.
    Two, many stakeholders are just simply unaware of its 
existence. I know a lot of our members just are not aware of 
it, even though we have had four meetings with members and had 
the Council there.
    Moreover, the lack of knowledge is causing some in Congress 
to insert permanent streamlining provisions in other 
legislative vehicles which, if enacted, would create an 
inconsistent permitting process.
    Four, Congress should appropriate funding for the Council 
at the President's request of $10 million.
    And, finally, during the 2015 negotiations over the 
provisions of FAST, the House attached a seven year sunset 
provision on the 
FAST-41, and I believe that should be repealed.
    As Congress and the President propose ways to improve 
America's infrastructure, we should recognize that FAST-41 is a 
valuable tool. It provides to the project sponsors the 
regulatory certainty that is needed to make the kind of 
substantial investments that they are going to make.
    With that, I am going to turn back 58 seconds of time, and 
everyone is going to be on time. Thank you very much, and I 
look forward to answering your questions.
    Senator Portman. God bless you, Bill. Fifty seconds, 
actually. [Laughter.] Mr. Slesinger.

TESTIMONY OF SCOTT SLESINGER,\1\ LEGISLATIVE DIRECTOR, NATURAL 
                   RESOURCES DEFENSE COUNCIL

    Mr. Slesinger. Thank you for the opportunity to testify 
today. My name is Scott Slesinger, and I am the legislative 
director of the Natural Resources Defense Council. I appreciate 
the opportunity to testify and hope that my remarks will assist 
the Subcommittee as it considers the important issues raised by 
the implementation of Title 41 of the FAST Act.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr Slesinger appears in the Appendix 
on page 94.
---------------------------------------------------------------------------
    Over several years, NRDC worked cooperatively with the U.S. 
Chamber, the Administration, Senators Portman and McCaskill, 
and the HSGAC staff to work on a compromise on what became 
FAST-41. Although we opposed many provisions, we appreciate the 
compromises that were worked out to improve the system and to 
be more efficient and lead to better environmental outcomes.
    One reform that the Chamber and NRDC both agreed on from 
the beginning, which has already been mentioned, was the need 
for more funding and more staff to do the permitting and 
environmental reviews. As I mentioned in my written statement, 
the loss of agency expertise and the lack of support for the 
National Environmental Policy Act (NEPA) within agencies and 
permitting staffs is responsible for many of the problems in 
implementing NEPA. In our eyes, the key reform in the 
legislation is the authority to use non-appropriated dollars to 
augment agency funds to complete the reviews necessary. We urge 
the permitting board to quickly implement a system to collect 
fees from project sponsors to address these bottlenecks by 
allocating those funds to agencies whose regulatory budgets 
have been decimated.
    Additionally, we have all heard the President talk about 
launching a new major infrastructure program. For this to 
succeed, the permitting board probably needs close to $30 
million to get up and running and to provide those monies for 
those agencies before the fee kicks in. The House Committee's 
token appropriation to the board of $1 million is barely enough 
to carry out its statutory duties in hosting the dashboard's 
tracking of projects.
    The permitting board needs strong leadership to carry out 
its statutory mandate, as I think everyone has mentioned. We 
applaud Senator Portman and Senator McCaskill's letter urging 
the President to quickly appoint an Executive Director. This 
law gives the Executive Director significant authority. The 
person selected must have the political skills to bring the 
siloed interests within the Federal family together--not just 
to make a faster system, but one where the environmental 
outcomes are better. Leaving in place an acting executive who 
is not a political appointee despite her skill undercuts the 
board's ability to get significant cooperation from department 
and agency leaders.
    Despite the enactment of this, I think, far-reaching 
legislation in 2015, we are very concerned with the number of 
bills in both Houses of Congress that would further amend the 
NEPA process without regard for their impact on process changes 
already made in FAST-41. If these bills became law, instead of 
making things simpler, they would create new conflicts, sow 
confusion, and delay project reviews, all of which will 
unfairly be blamed on NEPA, even though the real culprit is 
Congress passing contradictory legislation.
    Those that reached the House floor to establish a different 
permitting and NEPA processes for hydroelectric power projects, 
water supply projects, natural gas pipelines, international 
pipelines, fisheries management, and several others, all 
inconsistent with each other. The same for the Senate energy 
bill.
    President Trump's first Infrastructure Permitting Executive 
Order also contradicted authorities and responsibilities 
already in FAST-41, to the consternation of project sponsors 
that were already participating in the permitting board's 
existing processes.
    The President's revised EO of August 15th ameliorated most 
of those inconsistencies; however, it also gave a green light 
to wasteful Federal construction in areas susceptible to 
flooding by revoking an Executive Order that previously updated 
flood protection standards. As Harvey will show, revoking these 
standards will ensure that billions of dollars are wasted 
rebuilding vulnerable public facilities that could have been 
built more safely or in a safer location.
    I cannot conclude without noting that the emphasis on 
streamlining seems to be a diversionary tactic from the real 
problem of our failing infrastructure. Countries all over the 
world, including those with better infrastructures than our 
own, have adopted statutes based on our NEPA statute; bullet 
trains, modern subways, and efficient airports around the world 
have been built subject to NEPA-like requirements. What these 
countries have that the United States currently lacks is a 
national commitment to adequately funding infrastructure to 
compete in the 21st Century. Recent studies of the Department 
of Treasury and Congressional Research Service (CRS) show that 
funding, not regulations, are the major source of project 
delay.
    Thank you again for the opportunity to participate in this 
hearing, and I look forward to your questions, and Mr. Kovacs' 
10 seconds.
    Senator Portman. Yes, Mr. Kovacs, thank you for your 
generosity to Mr. Slesinger.
    First, thank you for the great testimony, and colleagues 
have now had to go to other hearings. Some of them will 
probably be back. I said I was going to defer my questions, but 
I will go ahead and ask a couple quickly and then get to 
Senator Carper.
    All of you talked a lot about this issue of the dashboard 
and whether it is working or not. There are 34 projects 
currently listed. I think you said 35, Bill. I guess there is 
one more that has been added from a sponsor. Our intent was not 
to just have projects listed that the Council thought were 
appropriate, but also to have sponsors be able to apply for 
that.
    Mr. Kovacs, you may know something about this, having 
worked with some of these sponsors. Are there other project 
sponsors who are applying to have their projects designated? 
And if not, why not, from your perspective? Or anyone else who 
has a thought on that.
    Mr. Kovacs. As I mentioned in my statement, we have had 
four meetings with our members on this issue to educate them, 
and there was honest concern as to, well, why is Congress 
putting permit streamlining in this bill or that bill? I think 
Scott and I have talked about this many times, and we have 
obviously tried to lobby both the House and the Senate on why 
are you doing this. So I think there was a lot of confusion.
    Two, without the Executive Director, I think that there was 
really not the time pressure to really move the projects. The 
projects were initially put on by President Obama, and it sort 
of stopped at that point in time. I am not criticizing it, but 
it is a lack of knowledge of the part of the business 
community. One of the things that is going to have to happen is 
that there is going to have to be an educational program for 
everyone to understand this, or as a few projects get in, but, 
like everything else, there is going to have to be success in 
the system to show that it can work. Certainly the structure 
should be able to work. But there is still going to have to be 
this push to say come into the system.
    The other thing is I think President Trump's Executive 
Order really helped. When the first Executive Order came out, 
there was an enormous amount of confusion as to what is going 
on in the system. Through education, that has been worked out, 
and I think everything that is coordinated, and coordinated 
very well, because other projects that may not necessarily get 
into the system can now come into the process.
    But the second thing is a lot of the projects that we are 
looking at are standard, like, for example, the FERC projects 
or the water projects. You also have the ability to put in 
manufacturing, and that goes to the West Virginia projects 
where they are trying to really redevelop all of West Virginia. 
But it also goes to broadband where they are looking at putting 
in $250 billion into rural broadband. So there is a lot of 
potential, but it has to be used.
    Senator Portman. I think that is a good point. My 
perspective from talking to some of these folks in the private 
sector with regard to public-private partnerships, which is 
part of the intent of this with infrastructure, is that they 
saw too much uncertainty, both because of the slow 
implementation of the Council and because of some of the 
confusion as the new administration came in with the Executive 
Order that seemed to be, as Mr. Slesinger said, contradictory 
in some respects and literally shifted responsibility, as you 
know, away from OMB that we had put in the legislation on 
purpose because we wanted OMB, with the levers that they have 
with agencies, to have that ability to help make this Council 
and the interagency process effective.
    So I think you are right. I think now that we are back on 
track and now that we have an Executive Order that seems 
consistent with the legislation--although some of you are going 
to have some comments on the Executive Order, I think we are in 
much better shape to have these sponsors realize there is some 
benefit here rather than the confusion.
    Mr. Kovacs. I would just add one point. The two things that 
the FAST Act has, FAST-41, one, the funding or the fee 
provisions are very important because that goes to Scott's 
point that one can help out the agencies that do not have the 
money. That is crucial. But the second thing is it has a two 
year statute of limitations, and that is something that none of 
the other permitting processes have, and that is crucial to 
ensuring that the process will be quick.
    Senator Portman. Yes. That two years started, as I recall, 
with 120 days or something like that, and Mr. Slesinger and 
others convinced us to lengthen that as part of a compromise. 
But it is an advantage, and I think a lot of people do not 
realize that. It goes to the issue that Brent was talking 
about. Mr. Booker, you were talking about the litigation issues 
and how some of your guys cannot put food on the table and keep 
their jobs because of litigation being used inappropriately to 
try to slow down projects that they cannot stop otherwise on 
the merits. So I think that is something we have to communicate 
better to people.
    I will say D.J. Gribbin, Janet Pfleeger, and others have 
been very helpful with the Executive Order, trying to be sure 
we straightened out that issue. I think there was just a lot of 
activity early on. So I think we are in better shape there. But 
that is an important part of how to move forward.
    Mr. Slesinger, you had a question?
    Mr. Slesinger. I would just suggest that I have a feeling 
it is going to be difficult to get project sponsors to 
voluntarily enter this program until it is shown that it works. 
And, therefore, I think the Federal Government, where it is the 
lead such as on NASA projects or military projects, if these 
agencies use it and show it works, I think then you will get 
the private sponsors to be more comfortable with it. And so 
those projects are usually bigger, which is what is usually 
left for the Federal Government to do. But I think those 
projects, if we can get those moving and work efficiently, I 
think that would make sponsors more willing to try this.
    Senator Portman. Yes, I think that is an excellent point.
    I am going to turn to Senator Carper, and then I have some 
follow up questions. Go ahead.
    Senator Carper. Thank you. Thank you so much for joining 
us.
    Mr. Gerken, I listened with interest to what you had to say 
about hydro. My wife and I were fortunate to attend with, I 
think, about 20 other congressional couples--House Members, 
Senators, Democrats, Republicans from all over the country--an 
Aspen Institute seminar. I do not know if Senator Portman has 
ever attended one of those, but George Voinovich, I know, and 
his wife used to go. But we do not spend a lot of time with the 
House as colleagues, and we do not always have the kind of 
communications across the aisle that we should have with the 
opportunity between Democrats and Republicans. It was a great 
chance to do that.
    I was interested to find out that Norway is numbered five 
or six in terms of known oil and gas reserves in the world, a 
little country of five million people. They derive 98 percent 
of their electricity from hydro. Forty percent of their cars 
are powered by electricity now, and they are hugely interested 
in finding ways to clean the environment and meet their 
environmental goals, but also to create jobs, and they are 
pretty good at it, and really good at retraining people for new 
industries that are emerging.
    I know not everyone is comfortable with hydro. In some 
places it is appropriate; in some places it is not. Scott, this 
might be a question I could just lead off with you. I live in 
the lowest-lying State in America. Every day we see the 
vestiges of climate change and global warming. Our State is 
sinking, and the seas around us are rising. And we are anxious 
to address climate change and do it sooner rather than later. I 
am not sure if hydro can be part of the solution. I am an 
advocate for nuclear power plants, done safely, but we are 
seeing nuclear plants being closed down across America, and 
they have been for years, like 60 percent of our source of 
electricity is pollution-free. So are we missing something with 
hydro or not?
    Mr. Slesinger. I am not a hydrologist or one of the experts 
on that, but we do have those at NRDC. I would just say there 
are issues with the water temperature that hydro creates that 
could have impacts on fish and fishing. And so that is, I 
think, the major issue, but I can get our staff to get back to 
you on that.\1\
---------------------------------------------------------------------------
    \1\ The information from Mr. Slesinger appears in the Appendix on 
page 187.
---------------------------------------------------------------------------
    As far as nuclear power----
    Senator Carper. No, I am not interested in talking about 
nuclear.
    Mr. Slesinger. All right.
    Senator Carper. I just wanted to focus on hydro.
    Anybody else have a thought on hydro? Marc, you can comment 
more. Brett, please?
    Mr. Booker. I do not have a whole lot of experience. I am 
actually going to Canada next week, and they have some very 
large hydro projects that they are building in Canada. From our 
perspective on a job creation and a clean power perspective, it 
works up there. I am going to Newfoundland next week to tour a 
site and get some more information, and we will certainly 
follow back up with you.
    Senator Carper. Do you know where the first Finns came to 
America and landed? Wilmington, Delaware. And do you know what 
they declared as they planted their flag? The Colony of New 
Sweden, because at the time there was no Finland. It was like 
375 years ago. They were part of Sweden. But the Finns, go 
visit those guys.
    Go ahead, finish.
    Mr. Gerken. I think I would like to just give a little bit 
of injection, too.
    Senator Carper. Please.
    Mr. Gerken. There are a lot of different applications for 
hydro. There is pumped storage. Ours are run-of-the-river, low 
RPM, so we do not have the fish mortality. We do not have a lot 
of impacts on the environment. We do have mussel monitoring 
required. But you have some other bigger dams. They have bigger 
impacts. So I think you have to take each type of hydro as a 
one-off and analyze it.
    For us, it is a long-term strategy. We fit it into our 
whole portfolio, and our members own about 20 percent renewable 
energy in Ohio themselves, and they are not mandated. So they 
see the need to get cleaner.
    And from a CEO perspective, I feel a lot better about the 
operation of hydro than I do with my coal plants or my combined 
cycle plants because those have higher maintenance costs. With 
these turbines that are low-spinning, there can be bearings 
issues, but it is usually a 10 year cycle for major maintenance 
overhauls, that type of stuff, and it is very minimal cost. So 
we see it as the future.
    Senator Carper. OK. Thanks.
    A long time ago, I learned that the key to success in most 
organizations--I do not care if they happen to be a government, 
a business, a school, a sports team--the key is almost always 
leadership. And to paraphrase--I think it was Alan Simpson. 
Alan Simpson used to say: ``Integrity, if you have it, nothing 
else matters. Integrity, if you do not have it, nothing else 
matters.'' I think the same thing is true about enlightened 
leadership and principled leadership.
    We have the position of Executive Director of the Federal 
Permitting Improvement Steering Council, and it needs 
leadership. They have interim leadership right now, but I am 
going to ask each of you to share with our Chairman and myself 
some of the key elements that the President and the folks 
running it should be looking for in identifying and selecting 
someone to lead this Council. Do you want to start off, Mr. 
Gerken?
    Mr. Gerken. Fine, and I do believe leadership is--it does 
wonders when you have an organization that has great 
leadership, so I think that is the key.
    I think that--I am not sure who talked on this--I think it 
was Senator McCaskill, that it takes some political ability to 
wade through the politics, which are always going to be there. 
I think he or she has to have a strong understanding of the 
stakeholders on all sides of the fence. From that perspective, 
you just cannot take and pluck one side out. I think it has to 
be somebody that can work across the aisle. And then, actually, 
the other thing is that you need to put a team underneath that 
Executive Director that is effective.
    Senator Carper. All right.
    Mr. Gerken. And it needs the proper funding as well.
    Senator Carper. OK.
    Mr. Gerken. Or else it will die.
    Senator Carper. Thank you. Brent.
    Mr. Booker. Without being repetitive, leadership----
    Senator Carper. You can be repetitive. Sometimes repetition 
is good.
    Mr. Booker. Leadership, knowledge, knowledge of the 
agencies, knowledge of the stakeholders, someone to be able to 
convene the stakeholders, all of the stakeholders around the 
table and trying to realize the solution. At the end of the 
day, we are looking for predictability. Whether you are a CEO 
of a power company, whether you are a labor leader, the Chamber 
of Commerce, everybody needs predictability. And for us to be 
able to train people, for our contractors to be able to bid it, 
for our owners to be able to deploy capital, you have to have 
somebody that is leading that ship and to know that it is going 
to take X amount of time for me to get through that. Tell me 
what the rules are and let us follow the rules. So 
predictability, something that can provide that for us would be 
key.
    Senator Carper. Great. Mr. Kovacs.
    Mr. Kovacs. Well, I would stay with the political skills 
specifically to organize and negotiate with the various 
stakeholders, because at this point in time, you have almost 
every agency in the Federal Government in some way that could 
possibly be involved.
    I think the second thing is they really need to understand 
the administrative procedures, just how agencies work, how does 
government works, what can you do legally, what can you not do 
legally.
    And I think, finally, some understanding of budgets and how 
to get the money, because at the end of the day, if this agency 
or group is not going to be able to get the money, it is not 
going to be able to function.
    Senator Carper. That is a good list. Thanks. Scott.
    Mr. Slesinger. The permitting process can be a very 
complicated area, multiple scientific disciplines, economics, 
and the law. So the Executive Director must have broad 
experience and sufficient qualifications to successfully lead 
in the implementation effort.
    More importantly, as you point out, because of the 
political issues that are involved with all these Federal 
agencies, this person needs the support of the CEO, the 
President because that is the only way he or she is going to be 
effective to make this program work with all these agencies 
involved.
    Senator Carper. OK. Good. Thanks to all of you.
    Senator Portman. Thank you all very much.
    Let me just ask a couple of follow up questions. One for 
Mr. Booker, just to get it on the record. You made a lot of 
good points about the fact that the Jobs Council and the Obama 
Administration actually recommended that we proceed with this, 
and that is one reason, I think, in the end we were able to get 
support from the Administration for the proposal. You also 
mentioned the cost of delay to the economy; $3.7 trillion was 
the number you used. I want to find out what your data is on 
that, because that is an incredibly important part of this, 
what is the cost of delay, which we have a tough time putting 
our hands around sometimes. You talked about the lawsuits. Sean 
McGarvey, by the way, has been terrific to work with on this, 
and particularly with regard to the NEPA issue and, how to 
ensure you have these regulations in place to ensure you have 
an environmentally sound project, but that you do it in a way 
that keeps people at work.
    Can you give us any specific examples of agencies delaying 
projects that impacted your members? If you cannot give them to 
us today, maybe you could follow up with some specific examples 
for us.
    Mr. Booker. The first one I will refer back to is one that 
is in FAST-41, in the fast track, is the Atlantic Coast 
Pipeline. In talking to them, they report out, National Park 
Service took over 14 months to grant permission to survey a 
0.1-mile crossing of the Blue Ridge Parkway. So 14 months to 
grant permission to do the survey. Once they granted the 
permission to do the survey, in one afternoon the survey was 
complete. So, I mean, that is one that is where you look at 
where we have problems with where we currently sit, and 
commenting on Mr. Kovacs and Mr. Slesinger and the other 
panelists here, you have to have success. We have a project, a 
$5 billion project, started the first initial permitting in 
2015. One of the delays which is going to put a year-long delay 
of in-service date is because it took 14 months to grant 
somebody permission to go survey the Blue Ridge Parkway, a 0.1-
mile stretch of land.
    That is a current example of where we need improvement, 
where we can get a little bit better. We can look back, and I 
can provide you with a multitude of lists.
    One of the problems in preparing for this testimony is 
contacting owners that we work for, contractor partners that we 
work for. The problem is that they are all numb to it at this 
point. They know that whatever project it is, whether it is a 
combined cycle gas plant, a pipeline project, you name it, they 
have built into their time period it is going to take three, 
four, five years to get my permits; it is going to take 
millions and millions of dollars for me to do that. At the end 
of the day, the result of that is that instead of having four 
capital projects that they are considering, they have dropped 
that list down to two or three because they know how long it is 
going to take and they are numb to that fact, and that is just 
the way the game has been played.
    So getting this up and running, getting an Executive 
Director in place, having some success of these projects that 
are in FAST-41 I think is going to change the perception, 
because the perception right now is that I am not even going to 
go down this road on trying to deploy my capital on a multitude 
of infrastructure projects or energy projects or whatever they 
may be, because I know that it is going to take such a long 
amount of time for me to do it that I am limiting my resources. 
So instead of considering four projects, we are limiting it to 
two. That is how you get in your opening remarks of where we 
are at on American Society of Civil Engineers with a D-plus 
overall infrastructure grade. We cannot invest in our own 
infrastructure.
    Senator Portman. Yes, and us being 39th in the world, and I 
think you make some excellent points, and, again, this is sort 
of the basis of this thing. Now let us make sure that it works 
to address that so that, in fact, they can have more projects 
and that your folks can have more certainty, as was said 
earlier.
    Mr. Gerken, you talked specifically about time is money. 
You said you had a 50 basis points increase in your borrowing 
because of the delay that you can point to. So, capital is 
global now, and what I have heard from a lot of folks with 
regard to infrastructure as we have dug into this is that one 
reason you see all those cranes in London or in Asia is because 
they do green-light projects more quickly, not just in the 
developed world but in the developing world, that they have 
figured out ways to have a NEPA-type process but to do it more 
efficiently and effectively. And, that makes it difficult for 
you to be able to get the borrowing costs down to be able to 
proceed with the next AMP hydropower project. Is that right?
    Mr. Gerken. Right. Yes, exactly. To give you an example 
with R.C. Byrd, let us look at this project now. We have a 
license. Now we have to--as Senator McCaskill said, the Corps 
has already said, well, we do not like the biologicals, so we 
are going to go back and address the EA during their 404 or 408 
process. Well, quite frankly, if you look at the 404 and the 
408, what it is meant to do with the Corps has nothing to do 
with that process. It is dredging and dam stability.
    But what I am saying is I have a project. If I knew that 
there is FAST-41 and it was a two year process, I would be glad 
to pay some fee to help accelerate this thing. So that I could 
order turbines and have them ready to be put in along with the 
concrete, all that timing and that job sequencing saves money. 
And when you can stretch that construction period--and that 
goes with ordering the equipment--those are long lead time 
items--you can save money. And that is where it is at for us.
    Senator Portman. Well, it is great testimony, great 
specific examples.
    Mr. Kovacs, you have this analysis of agency participation 
showing that some agencies have been less cooperative than 
others. I assume you included that in your testimony so it is 
part of our testimony here today. If not, without objection, I 
want it to be made part of the record. But if you could please 
just quickly--and this will be my last question--tell us what 
we ought to do about it. If you want to talk a little bit about 
which agencies are lagging, that would be good. I named some 
earlier. Naming names always helps. But what should we do about 
that? Obviously we would like to have continued follow up from 
all of you on the questions we have asked today to be able to 
continue to have this oversight that Senator McCaskill, Senator 
Carper, and I talked about today. But, Bill, why do you not 
address that quickly?
    Mr. Kovacs. Sure. It was not put in there to be critical of 
the agencies. What it was to show is that the agencies that do 
permitting a lot, FERC and the Bureau of Land Management (BLM), 
are fairly good if you look at the dashboard. Everything that 
they do, every permit that is involved, the deadlines, whether 
they met it or not, they seem to be able to do the process.
    When you get into the Bureau of Indian Affairs, HUD, 
Nuclear Regulatory, they just do not do a lot of it, and I 
think one of the things that is going to happen is you need 
some education within the agencies. And I say this because when 
we were dealing with energy savings performance contracts, 
nothing to do with this, but it was a very novel concept, how 
the Federal Government finances renewable energy within office 
buildings. The biggest problem that we have is that the energy 
officers who are working in the agencies did not understand how 
to do it, and gradually it went up from about $500 million to 
$4 billion, which is money that is being invested that the 
government does not have to pay for, and it is paid for out of 
the energy savings.
    And, again, I think if this is going to be successful, not 
only do you have to have the political organization to be able 
to work with the various agencies, but you have to educate 
them, and that is crucial because you may think that the most 
important ones in the world are the energy projects or the 
highway projects. But at the end of the day, you are still 
going to want to do broadband and you are going to want to do 
other things. I think you have to bring the others in.
    Senator Portman. Yes. Well, we want you to keep their feet 
to the fire. Again, thank you very much for your testimony 
today.
    I am going to turn to Senator Carper for any final 
questions.
    Senator Carper. Thanks, Mr. Chairman.
    I was privileged to serve as Governor of Delaware from 1993 
to 2001. The person who preceded me as National Governors 
Association (NGA) Chairman was George Voinovich, a dear friend 
of the Chairman's and mine. The year after I stepped down as 
Chairman, I got to be Chairman of something called the NGA 
Center for Best Practices, and what it is is a clearinghouse 
for ideas that work. It could be reducing recidivism. It could 
be reducing dropout rates. It could be success in getting 
people off of welfare and working on a permanent basis. But the 
idea was to find out what was working from one State to the 
other and see if it was replicable and provide contact 
information. It is actually more vibrant today than it was when 
George and I were serving together.
    It seems to me that one way that the Federal Permitting 
Improvement Steering Council could make a difference is by 
learning what some agencies might do well when it comes to 
environmental reviews and permitting decisions and encouraging 
other agencies to be aware of that and to see if that might be 
replicable.
    Do you know of any progress that the Council has made in 
this area to date? I describe it as, ``Find out what works, do 
more of that.'' And do you know of anything that has been done 
along these lines to help in this regard, in this specific 
regard?
    Mr. Kovacs. They actually have issued their first booklet 
on best practices, and it is to be done every year, and it is 
in several places within the statute. So it is something that 
is being incorporated. It is just going to have to be something 
that they really do every year, and that is just keep on top of 
it.
    Senator Carper. Anyone else?
    Mr. Gerken. I think that one of the things that is 
important is the transparency side of it, and I think that when 
everybody has a flashlight shined on them and they have to do a 
job, it does makes a difference. And that is why I think the 
Council getting an Executive Director is critical, because--and 
I am saying the flashlight goes on my folks, too. I mean, it is 
not one way. And so I think the sooner you have that and the 
dashboard from schedule, from transparency, is very important. 
And even for a person like me, I am going to be able to look at 
it and be able to see where we are letting ourselves down, 
because there are times when we are not holding up our end of 
the bargain either. So the transparency, I think is critical.
    Senator Carper. All right. Thank you.
    Today, as we are trying to help a lot of unfortunate people 
in Texas and the gulf coast to recover from a desperate 
situation, and now we have another storm bearing down on 
Florida. And I mentioned earlier I represent a State that is 
the lowest-lying State in America, and we see the vestiges of 
climate change literally every day. This hearing has been 
focused on the risks and uncertainties for projects prior to 
being built, which is important. However, there can also be 
risks to infrastructure once it has been built, and 
particularly in low-lying areas like my own State, where we are 
seeing the vestiges of sea level rise every day.
    How do you believe that public agencies and project 
sponsors should be integrating climate change projections and 
sea level rise into project reviews? Mr. Slesinger?
    Mr. Slesinger. I think it is critical, and I think the law, 
actually the way the National Environmental Policy Act works, 
you are supposed to look at what the environmental impact of a 
project is going to be. And many of those projects, those 
larger projects, will have either climate impact or will be 
impacted by climate. And so, therefore, we have to do projects 
that make sense.
    There is an amendment in MAP-21 that says, if there is a 
declared emergency, you can avoid NEPA and get moving right 
away by rebuilding in the exact same place with the exact same 
footprint. That seems, if you look at what has happened in 
Houston, the exact wrong thing to do. And so we want to make 
sure when people do rebuild, when they do have a climate 
impact, that they know this is not a 1 in 1,000 year event that 
is not going to happen for millennia. Flooding again is a risk, 
and we need to look at what is reasonably going to happen 
because of climate and take that into account. And that is--
frankly, one of the key parts of NEPA, other than letting the 
local people know what is going on in their area by the Federal 
Government, is to think before you act. Think before--plan, 
then build; not build, get flood insurance, and then rebuild 
again.
    And so the Council on Environmental Quality (CEQ) came out 
with guidance to help agencies do this. It has the terrible 
name of ``social cost of carbon.'' But when agencies do 
projects, when big sponsors do projects, they really have an 
obligation under NEPA to look at what the environmental and 
community impacts are going to be before they build so we can 
build smart and save, in the end, taxpayers' money and probably 
lives.
    Senator Carper. All right. Anybody else want to comment on 
this? Mr. Gerken.
    Mr. Gerken. I will. One of the things that AMP has done on 
all of our hydros that we have on the river is we set our 
elevations on the top of our projects to be at the 100-year 
flood, so they get overtopped at a 100-year flood. One of the 
reasons is we do not want to impact anything, catastrophic 
flooding down the river, so the modeling addresses that. So 
once we get a 100-year flood, our project, our hydro project, 
is not impacting those hydraulics going forward. And we think 
that is very important for a lot of reasons. One is permitting. 
But, two, we think it has less impact, and we feel good about 
that.
    Do we get overtopped a few times? Yes. It is just some work 
you have to do to seal it up. But we think that is being a good 
steward as well, as well as running run-of-the-river hydro is 
carbon-free.
    Senator Carper. Thank you, sir.
    One last word, Mr. Kovacs.
    Mr. Kovacs. One of the great parts of the FAST-41 is that 
there is initial consultation so that the agencies and the 
project sponsor have some idea what they are to do and what 
kind of information they are going to have. In that, one of the 
things that has not been mentioned today is we still have this 
Information Quality Act that is in the Federal Government where 
we use the best and most updated information. I think when you 
get to the flood areas, we have been using outdated information 
for decades. I think one of the things that is going to have to 
happen as part of the initial consultation is you are going to 
have to be honest with each other, because at the end of the 
day, if the project is not going to go forward, the sponsor 
would rather know that and get out. When we did our project no-
project study, one of the things people found out is they had 
their financing for five years, but the effort and the 
permitting took seven. They would have just rather known in 
year one that they needed to go somewhere else.
    Senator Carper. Our thanks to each of you.
    As the Chairman knows, we have a Finance Committee hearing 
underway and the Children's Health Insurance Program (CHIP) 
reauthorization, which is an important piece of legislation. 
And the Health, Education, Labor, and Pensions (HELP) 
Committee, has the Governors before them today on health care 
reform and trying to stabilize the exchanges. I am going to try 
to hit both of those, and I will try to get back before the 
next panel is through. But if I miss it, just our thanks to all 
of you for being here. And, again, to my leadership, my 
Chairman and for Senator Claire McCaskill, thank you.
    Senator Portman. Gentlemen, thank you very much. I 
appreciate your testimony. We will now call the second panel.
    The first witness in the second panel is Janet Pfleeger. We 
talked about Janet Pfleeger earlier as the Acting Executive 
Director of the Federal Permitting Improvement Steering 
Council. We appreciate her service.
    Second, Terry Turpin. Terry is Director of the Office of 
Energy Projects at the Federal Energy Regulatory Commission. We 
have talked about FERC quite a bit in this hearing.
    Third, Robyn Colosimo. Ms. Colosimo is the Assistant for 
Water Resources Policy for the Office of the Assistant 
Secretary of the Army for Civil Works (OASACW). We have talked 
about the Army Corps quite a bit today.
    And then, finally, Gary Frazer, Assistant Director for 
Ecological Services at the U.S. Fish and Wildlife Service.
    We appreciate each of you coming today, and thank you for 
your willingness to be here to hear the other panel and also to 
testify today and for your good testimony you submitted in 
advance. We look forward to hearing from you.
    Again, it is the custom of this Subcommittee to swear in 
witnesses. I ask you, now that you are seated, to please stand 
and raise your right hand, and I am going to ask you a 
question. Do you swear the testimony you will give before this 
Subcommittee will be the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Ms. Pfleeger. I do.
    Mr. Turpin. I do.
    Ms. Colosimo. I do.
    Mr. Frazer. I do.
    Senator Portman. Excellent, noting that each of the 
witnesses has answered in the affirmative. I want to tell you 
that we will stick to the timing system, as we did earlier, and 
try to keep it to five minutes each. Then we will have the 
opportunity for some questions. We appreciate your being here 
today and the valuable information you are going to provide 
with regard to this important oversight hearing.
    Ms. Pfleeger, we will hear from you first.

  TESTIMONY OF JANET PFLEEGER,\1\ ACTING EXECUTIVE DIRECTOR, 
        FEDERAL PERMITTING IMPROVEMENT STEERING COUNCIL

    Ms. Pfleeger. Chairman Portman, thank you for the 
opportunity to appear before you today. The time required for 
infrastructure projects to navigate through the labyrinth of 
the Federal permitting process is simply unacceptable. The 
Federal Permitting Improvement Steering Council brings 
accountability and transparency to what has been for too long 
an uncertain and unpredictable process, one that does not lead 
to better community and environmental outcomes.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Pfleeger appears in the Appendix 
on page 103.
---------------------------------------------------------------------------
    Through FAST-41, you provided us with the tools to bring 
transparency, accountability, and predictability to the 
permitting process while protecting public health, safety, and 
the environment.
    My office is actively working with the Administration to 
improve the permitting process for infrastructure projects. 
Last month, President Trump signed Executive Order 13807, 
entitled ``Establishing Discipline and Accountability in the 
Environmental Review and Permitting Process for Infrastructure 
Projects.'' The EO enhances the work of the Permitting Council 
through the establishment of a ``One Federal Decision'' policy 
and through a Cross-Agency Priority (CAP) Goal that establishes 
management accountability within agencies for infrastructure 
permitting modernization goals. The framework for implementing 
One Federal Decision will be developed in consultation with the 
Permitting Council, as will the CAP Goal's accountability 
system.
    Since being hired in January as Deputy Director of the 
Permitting Council's Office of the Executive Director, where I 
am now serving as Acting Executive Director, my office has been 
using FAST-41 to break down the institutional silos responsible 
for red tape and unacceptable permitting decision timelines. My 
office has focused on three areas that I would like to 
highlight for you today: institutionalization of best practices 
through early and formalized cross-agency coordination, 
increased transparency through the Permitting Dashboard, and 
project-specific coordination and dispute resolution.
    To my first point, FAST-41 requires the development of 
interagency Coordinated Project Plans (CPPs), an essential tool 
for cross-agency planning and implementing best practices. The 
initial development and quarterly updates of CPPs formalize 
interagency collaboration and force agencies to address 
difficult issues early in the permitting process to prevent 
confusion and delays later in the process.
    To my second point, the Permitting Dashboard brings an 
unprecedented degree of transparency to the permitting process. 
The permitting timetable developed in every project's CPP is 
made public on the dashboard, which lists target completion 
dates for all permits. Each quarter, my office and the 
permitting agencies review those dates, and my office enforces 
the FAST-41 restrictions for modifications to those dates. With 
nationwide visibility and built-in accountability structures, 
the dashboard helps keep projects on schedule and provides 
permitting predictability.
    To my third point, project sponsors have contacted my 
office for help with specific issues such as when a sponsor 
received contradictory information from headquarters and field 
offices or when different agencies working together on a 
project disagreed on a path forward. We are requiring agencies 
to use the tools FAST-41 provides to share information so they 
identify and resolve discrepancies early.
    By focusing on these three areas, the Permitting Council is 
transforming the Federal permitting process, with recent 
successes in both systematic and project-specific improvements. 
FAST-41 brings about a new way of doing business that addresses 
common stakeholder concerns and improves permitting timelines.
    My office has only just begun to carry out our 
responsibilities under FAST-41 using initial funding from 
Cross-Agency Priority Goals. Going forward, the President's 
Fiscal Year 2018 budget request of $10 million provides the 
funding support we need to fully carry out responsibilities 
given to us in statute. Additionally, FAST-41 provides the 
authority to issue fees regulations, and the Permitting Council 
is working to take advantage of this important tool.
    In conclusion, FAST-41 is not the first time the Federal 
Government has tried to reform the permitting process, but this 
is the first time the framework to accomplish real reform is in 
place. I thank you for the opportunity to testify before the 
Subcommittee today and welcome your questions.
    Senator Portman. Thank you for that good testimony, Ms. 
Pfleeger. Mr. Turpin.

  TESTIMONY OF TERRY L. TURPIN,\1\ DIRECTOR, OFFICE OF ENERGY 
         PROJECTS, FEDERAL ENERGY REGULATORY COMMISSION

    Mr. Turpin. Good morning, Chairman Portman. I am the 
Director of the Office of Energy Projects at the Federal Energy 
Regulatory Commission. The office is responsible for taking a 
lead role in carrying out the Commission's duties in siting 
infrastructure projects including: non-Federal hydropower 
projects, interstate natural gas pipelines and storage 
facilities, and liquefied natural gas (LNG) terminals.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Turpin appears in the Appendix on 
page 114.
---------------------------------------------------------------------------
    Thank you for the opportunity to appear before you to 
discuss FERC's process for reviewing this kind of 
infrastructure as well as FERC's work with the Federal 
Permitting Improvement Steering Council. As a member of the 
Commission's staff, the views I express in my testimony are my 
own and not necessarily those of any individual Commissioner or 
of the Commission.
    Under the Natural Gas Act, the Commission is responsible 
for authorizing the construction and operation of interstate 
natural gas facilities and facilities for the import or export 
of natural gas. Since 2000, the Commission has authorized 
nearly 18,000 miles of interstate natural gas pipeline totaling 
more than 159 billion cubic feet per day of transportation 
capacity, over one trillion cubic feet of interstate storage 
capacity, and 23 sites for either the import or export of LNG. 
Under the Federal Power Act (FPA), the Commission regulates 
over 1,600 non-Federal hydropower facilities at over 2,500 
dams. Together these represent about 56 gigawatts of hydropower 
capacity, which is more than half of all the hydropower 
capacity in the United States.
    In the last five years, the Commission has authorized 69 
new projects with a combined capacity of over 2,400 megawatts 
and has relicensed 42 projects which provide over 91 megawatts 
of generating capacity. For both these types of infrastructure, 
the Commission acts as the lead agency for the purposes of 
coordinating Federal authorizations as well as for the purposes 
of complying with the National Environmental Policy Act. The 
environmental review that is done is carried out through a 
process that allows cooperation from numerous stakeholders, 
including Federal, State, and local agencies, Native Americans, 
and the public.
    The Commission's current approach allows for a systematic 
and collaborative process and has resulted in substantial 
additions to the Nation's infrastructure. To a great extent, 
the process established by FAST-41 to improve early 
consultation and to increase transparency of project review 
mirrors the Commission's existing collaborative process.
    Commission staff is committed to working with the Council 
to assist in the successful implementation of FAST-41 and to 
ensure the most effective processing of energy infrastructure 
matters before the Commission.
    This concluded my remarks. I would be happy to take any 
questions you have.
    Senator Portman. Great. Thank you, Mr. Turpin. I appreciate 
that. Ms. Colosimo.

    TESTIMONY OF ROBYN S. COLOSIMO,\1\ ASSISTANT FOR WATER 
RESOURCES POLICY, OFFICE OF THE ASSISTANT SECRETARY OF THE ARMY 
                         (CIVIL WORKS)

    Ms. Colosimo. Chairman Portman, I am Robyn Colosimo, the 
Assistant for Water Resources Policy in the Office of the 
Assistant Secretary of the Army for Civil Works. Thank you for 
the opportunity to discuss the U.S. Army Corps of Engineers 
water resources infrastructure projects and the Regulatory 
Program within the context of Title 41 of the Fixing America's 
Surface Transportation Act.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Colosimo appears in the Appendix 
on page 124.
---------------------------------------------------------------------------
    The underlying objective of the FAST-41 provisions is to 
improve the Federal permitting process for infrastructure 
projects by integrating and streamlining Federal agency 
processes relevant to permits, approvals, determinations, and 
permissions. The Corps fully supports this objective.
    The Corps strives to provide timely and efficient 
decisionmaking both for the development of its water resources 
infrastructure projects and for applicants that may seek 
approval under one of its regulatory authorities for 
construction of an infrastructure project. The Corps fosters 
deliberate and open communication with applicants that request 
permits from the Regulatory Program under Section 10 of the 
Rivers and Harbors Act and/or Section 404 of the Clean Water 
Act (CWA) or request permission to modify or alter authorized 
water resources development projects under Title 33 of the U.S. 
Code, Section 408. The Corps also engages early and often with 
other Federal agencies to seek their feedback and synchronize 
their review with the Corps decisionmaking processes for 
infrastructure project proposals.
    For several years, the Corps has been sharing best 
practices from its Regulatory Program with other Federal 
agencies, including on the use of general permits and on the 
synchronization of review processes. The Corps also supports 
transparency and accountability, for example, by working with 
other agencies to provide permitting timelines for projects on 
the Infrastructure Permitting Dashboard.
    Starting in 2016, the Corps has been actively working with 
the Federal Permitting Improvement Steering Council and its 
member agencies to provide information on its Regulatory 
Program tools, databases, and codified decisionmaking 
procedures. The Regulatory Program utilizes a streamlined 
permitting process for the majority of activities it reviews. 
General permits are available where the proposed activity is 
minor in terms of its anticipated impact on aquatic resources. 
General permits reduce the time and cost to the applicant of 
preparing an application and reduce the time and cost to the 
Corps of reviewing the application. In Fiscal Year 2016, 94 
percent of the Corps permit workload was processed by general 
permits, and 87 percent of these were issued in 60 days or 
less. This enable the Corps districts to focus on the proposed 
activities that are more likely to have the potential for 
substantial adverse environmental impacts on aquatic resources 
and, therefore, to require a more detailed project-specific 
review. For applicants proposing such activities, the process 
involves submitting an individual permit. Of the activities 
requiring individual permits, 58 percent were issued within 120 
days of receipt of a complete application.
    The Corps has actively engaged with FPISC and other member 
agencies in the development of the implementation guidance for 
FAST-41. The scope of covered projects under FAST-41 generally 
applies only to certain infrastructure proposals that are 
subject to NEPA, likely to require an investment of more than 
$200 million, and do not qualify for abbreviated authorization 
or environmental processes under any applicable law. Another 
factor for projects to be included is when the size and 
complexity make the projects likely to benefit from enhanced 
oversight and coordination, including projects likely to 
require authorization from or environmental review involving 
more than two Federal agencies or the preparation of an 
environmental impact statement under NEPA.
    The Corps has worked expeditiously in the implementation of 
FAST-41, and is continuing to work at further improvements to 
facilitate implementation of this act such as automating data 
entry to the extent possible by making the Federal 
Infrastructure Dashboard compatible with existing agency 
websites that track some of the data required on the dashboard.
    FAST-41 is most beneficial to those projects where the 
Federal Government has a substantial role in permitting or 
approving the project, but which does not already qualify for 
abbreviated authorization or environmental review processes 
under other statutes. For example, there may be large 
infrastructure projects that meet FAST-41 criteria, but the 
Federal Government may only have a role in the review of an 
ancillary component of the larger infrastructure project, the 
review of which is already abbreviated, using existing 
authorities such as the Corps' nationwide Permits Program under 
the Clean Water Act.
    Thank you for the opportunity to share the Corps' 
experience and perspectives on implementation of FAST-41. We 
look forward to continuing to support FPISC and other member 
agencies on sharing of best practices and greater efficiency 
and transparency in our review of infrastructure projects.
    Senator Portman. Great. Thank you, Ms. Colosimo. Mr. 
Frazer.

  TESTIMONY OF GARY FRAZER,\1\ ASSISTANT DIRECTOR, ECOLOGICAL 
 SERVICES, U.S. FISH AND WILDLIFE SERVICE, U.S. DEPARTMENT OF 
                          THE INTERIOR

    Mr. Frazer. Good morning, Chairman Portman, Ranking Member 
Carper, and Members of the Subcommittee. My name is Gary 
Frazer, and I am the Assistant Director for Ecological Services 
at the U.S. Fish and Wildlife Service. I appreciate the 
opportunity to testify today on the Service's work on 
implementation of FAST-41.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Frazer appears in the Appendix on 
page 127.
---------------------------------------------------------------------------
    The Service is responsible for reviewing and permitting 
projects under a number of statutory authorities, including the 
Endangered Species Act, the National Environmental Policy Act, 
and the Fish and Wildlife Coordination Act. The Service's role 
is to facilitate the development and timely decisionmaking of 
environmentally sound infrastructure projects. The Service 
works with project proponents and regulatory or construction 
agencies to help avoid and minimize harm to fish and wildlife 
and to offset those impacts that are unavoidable so as to 
facilitate these important projects while ensuring the 
conservation of our Nation's fish and wildlife resources.
    The Service typically carries out these activities in the 
field as a participating or cooperating agency under FAST-41, 
working with the lead agency for a project in reviewing and 
commenting or consulting on the project plans within set 
deadlines. We also engage at the national level to advise the 
Council in identifying and implementing best practices and 
policies related to FAST-41.
    The overwhelming majority of the Service's activities are 
carried out at the field level. The Service's local field staff 
have in-depth knowledge of the ecosystems in which they work 
and the species that inhabit them, bringing expertise to 
project reviews to facilitate efficient, project-specific 
analyses. Larger and more complex projects, like those covered 
by FAST-41, may fall under the jurisdiction of two or more 
field offices or regions. Our objective is to provide project 
proponents and regulatory agencies with consistent and 
efficient review and comments and, where feasible, a single 
point of contact.
    At this time, the Service is either a cooperating or 
participating agency in the majority of FAST-41 projects. I 
have highlighted a couple of these projects in my written 
testimony, and they illustrate ways in which the Service has 
worked with other agencies and project proponents to 
efficiently and effectively review and permit large and complex 
infrastructure projects.
    But we are not perfect, and FAST-41 provides a helpful 
framework for us to improve our processes. The Service is 
committed to improving the environmental review process to 
facilitate environmentally sound infrastructure development 
through timely, transparent, and predictable reviews, while 
ensuring the conservation of our Nation's fish and wildlife 
resources. We view FAST-41 as a constructive framework for 
arriving at more timely decisions. In addition to facilitating 
increased coordination, FAST-41 increases the accountability of 
all parties involved by designating priority projects, ensuring 
commitment to agreed-upon timelines, and helping to identify 
and elevate potential issues earlier in the process. FAST-41 is 
a positive step in helping to integrate various reviews and 
facilitating efficient processes across the Federal Government.
    Thank you for the opportunity to discuss the Service's work 
in implementing FAST-41, and I would be happy to address any 
questions you may have.
    Senator Portman. Great. Thank you. Thank you all for your 
testimony.
    Since the last two witnesses talked about their extensive 
work with regard to FAST-41, let me just follow up quickly on a 
concern that has been raised to us and I think also to Ms. 
Pfleeger, and she can speak about herself, and that is that at 
the headquarters level, there seems to be quite a bit of 
sophistication and focus on this issue; whereas, at the 
district offices, sometimes that breaks down. So we hear from 
people who say, ``Yes, I think, they understand at headquarters 
it ought to be done, but those requirements are applied 
inconsistently across the country, and we work with the 
agencies or offices that are dispersed elsewhere.''
    Can you talk a little about that? One, what are you doing 
to communicate to your district offices, your local offices, 
about the requirements of FAST-41? I know AMP included in its 
written testimony that the Corps sometimes, have not been 
communicating clearly to every office. I have certainly seen 
that with regard to other Corps projects sometimes. Sometimes 
the right hand does not exactly share what the left hand is 
doing. Eventually, we resolve those issues. If you can talk a 
little about that and what could be done to ensure that we are 
getting that communication down and appropriate training down 
to your district and local offices. Why do you not go first, 
Mr. Frazer, since you were the last one to talk about this 
issue?
    Mr. Frazer. Well, we have a network of about 80 Ecological 
Services field offices where most of our environmental review 
work is done and most of the project-specific coordination is 
done, and they obviously deal with some FAST-41 projects, but 
they also deal with many other projects. The mail brings in new 
projects every day, and they do their best to provide a high 
level of service for all of those. But when we are putting 
together and trying to stand up a new process that focuses on 
these particularly high-profile and highly important 
infrastructure projects, it is not something that is an 
immediate game changer for them unless they are informed as to 
the significance of this new process, the priority placed upon 
timely and effective review, and how they should consider that 
in the context of all the other work that is coming into their 
office. That is where we play a role at the national level.
    I have staff that are directly engaged in working with 
FPISC Council in developing and standing up the rules and 
procedures and coordinating between the work of the Service and 
the other agencies. We are in regular communication with our 
regions and, through the regions, our field offices so they are 
aware of how this process is going to develop and the 
importance of them being able to work effectively in this, to 
be committed to the process, to working within the timeframes, 
to being conscientious about taking the actions that we are 
committing to when we engage in these sorts of projects.
    So it is a process. I think just like the Council is 
standing up their overall infrastructure, we need to also 
ensure that within our agency we have that sort of education 
and training going on internally. That is where we have a role 
in staffing and regular coordination with our field offices in 
that regard.
    Senator Portman. Well, that is encouraging to hear. If you 
would, please, be willing to supply to the Subcommittee an 
example of that communication and perhaps as a template for 
others as well.\1\
---------------------------------------------------------------------------
    \1\ The information submitted by Mr. Frazer appears in the Appendix 
on page 265.
---------------------------------------------------------------------------
    Mr. Frazer. I would be happy to.
    Senator Portman. Ms. Colosimo, could you respond also to 
this issue of field offices being consistent with headquarters?
    Ms. Colosimo. From a big picture, here are a few things 
about FAST-41 and our engagement. By purpose and design, the 
Steering Committee member is actually out of the Office of the 
Assistant Secretary of the Army for Civil Works, where we 
provide oversight to the Corps of Engineers. But by intention, 
the Chief Environmental Review and Permitting Officer (CERPO) 
is actually at the Corps headquarters, and that was intended to 
help engage the field and provide more direct oversight from 
both our regulatory and our 408 programs.
    That said, we have actually spent a substantive amount of 
time with Corps field personnel in terms of developing guidance 
with them on how to implement, and we are making sure we are 
powering down those decisions to the appropriate level, but yet 
providing enough oversight for consistency.
    So as an example, in the 408 program, which is more about 
the impacts to Corps projects, the Federal investments Congress 
asks us to build, there have been concerns about application 
across the districts and we have spent a lot of time in 
training and trying to make sure that is happening. We are 
providing that oversight and trying to solve the problems that 
were highlighted by Ohio AMP.
    In terms of the actual day-to-day work, we are also 
tracking things like Mid-Barataria, which is a dashboard 
project where we are the lead agency, that are managed at the 
district level, where we can help engage with FPISC to solve 
problems as they emerge. We are making sure that we are 
focusing at the right level but providing the training and 
support at the DC level to make sure that personnel are 
embracing this process.
    It is true when it was stood up, to be frank, that it was 
more DC-driven. We are trying to put together a lot of the 
implementation guidance, and the challenge has been to make 
sure that we are getting out there and moving toward this 
project process.
    Senator Portman. You mentioned Mid-Barataria. It was the 
first project, as I understand it, to be covered.
    Ms. Colosimo. Yes.
    Senator Portman. And so the Corps was asked to be the first 
to jump off the diving board into the FPISC waters.
    Ms. Colosimo. It was fun.
    Senator Portman. I guess the broad question is: What did 
you learn from that? What is it like to be the lead agency? 
And, what did you learn for the next project? It sounds like 
you were trying to lead from the headquarters at that point 
even though the folks in Louisiana were involved with the day-
to-day, I assume, with that project. How did you work that out? 
What lessons did you learn that would be helpful for other 
agencies?
    Ms. Colosimo. There were a lot of lessons to be learned, 
and, frankly, we did it together with FPISC. I think the actual 
FIN came in on December 27. Not a lot of people were available 
to coordinate with at that time, but we got the right folks in 
the room and tried to figure out how to best proceed to meet 
the 14-day timeline specified in the law.
    I would say the biggest thing we learned in that process 
was to anticipate those activities coming forward, and we had 
known that there was some interest in putting Mid-Barataria on 
the dashboard, however we probably did not do enough on the 
pre-application side or pre-interest side to find out about the 
timing of that request so we could better align.
    Once we got into the process, I think we had already done a 
lot of work as a Steering Committee and a working group to 
develop the CPPs, the coordinated project schedules. Then it 
really became that we had not gotten all folks engaged enough 
to understand how to develop and populate those schedules once 
we concurred that it was a covered project.
    I would say since then the things that we are learning that 
apply across all the 35 projects on the dashboard have a lot to 
do with what we are actually populating in the CPP on the 
dashboard for transparency. So as an example, there are 15 
projects on the dashboard where we are engaged. All of them 
involve some level of a Section 404 10 permit from us or a 
review from us. I believe a number of them, maybe 10, will 
likely be a general permit. And because of its abbreviated 
nature, it is sort of an estimate in time on when we would 
actually issue that permit where we are not the lead agency and 
where we would expect to get the information and then make the 
determination. The estimate versus when we get the application 
so we can make a more firm date, that kind of fluidity is the 
area I think we are all learning a lot about at this time. And, 
of course, once you put it on the dashboard, it is transparent 
and there are a lot of questions. It is very adaptable.
    Senator Portman. Yes, that is the flashlight that was 
talked about earlier that is on you.
    Ms. Colosimo. Yes.
    Senator Portman. So to all of you, thank you for what you 
do, because this is going to fail or succeed based on 
implementation at your level. There are some who complain, as 
you know, that this legislation did not go far enough in 
establishing not just goals but deadlines that had more 
significant consequences for the agencies. So to the extent you 
are, as you say, not just setting these out as goals but 
actually pushing your offices to meet these deadlines, it makes 
the process more effective, the structural work, but it also 
takes off some of this heat of people saying, well, FPISC is 
not strong enough in enforcing deadlines and timelines.
    I think it can work. I am not against having even more 
accountability in it, but this was a bipartisan process, and 
this is, I think, a very helpful structure. As Ms. Pfleeger has 
said, without this structure, despite all the efforts over the 
years, we have not had much success. Now we have structure that 
makes sense. But your job is to implement it and make sure that 
you are putting the pressure on your folks.
    Along those lines, Mr. Turpin, I have to ask you about FERC 
because FERC is now the lead on 13, I think, of the 34 
projects, which would put you--I believe, Ms. Pfleeger, FERC 
then becomes your number one sponsor or number one lead. I do 
not think any agency has that many leads. And I am concerned, 
as I said earlier, that FERC--I mentioned NRC. There are others 
who do not believe that all the provisions of FAST-41 apply to 
them.
    If I go on the dashboard and I look at any FERC project, I 
see that for every timeline entry, FERC says it cannot disclose 
timing of the proposed actions because its own regulations 
State that the nature and time of any proposed action by the 
Commission are confidential and shall not be divulged to anyone 
outside the Commission. Interesting. I am a recovering lawyer, 
so this is dangerous for me to talk about--but I always 
believed that statutes actually trumped regulations. And the 
statute requires you to provide that information.
    I would ask you--I do not want to accuse you of being a 
lawyer here, so if you do not feel comfortable answering the 
legal question--but how do you deal with that? Do not 
legislative actions like FAST-41 trump the regulations that you 
have in place?
    Mr. Turpin. Well, I am an engineer, so I do not take 
offense at being accused of being a lawyer. I work with quite a 
lot of lawyers. I think that question is one we asked 
ourselves. Obviously, statutes will always trump regulations. 
We looked at the statute when it came out and tried to figure 
out how does it fit into the independent nature of a 
commission. From a practical standpoint, the schedule is set by 
the five-member panel. There is not an ability for us as staff 
to bind them to when they make a decision. Their judgment is 
based on when the record is right, that is when they are going 
to issue their decision on it.
    I did meet with your staff back in the spring, and this 
question did come up. At that point, we were without a quorum. 
Now we have one. It is certainly a question that can be raised 
with the new Commissioners and to see what direction they feel 
this should go in or instructions they can give to staff.
    Senator Portman. We want to communicate directly to the 
Commissioners, and we have one member of the Commission, as you 
know, who is a former staffer up here who understands this 
process and helped us get this legislation through, understands 
the legislation well. And I guess, forgetting for a second the 
legal issue here, which I think is pretty clear, as you say, it 
is hard to see how FAST-41 can be effective if FERC is not 
going to disclose its timelines. That is my concern. How do you 
coordinate with other agencies and allow them to plan their own 
timelines if you cannot share that information with them? So I 
think we have to resolve this issue. Now that you have a 
quorum, you are going to start moving forward, as I understand. 
We are going to be discussing that with your Commissioners and 
also with the staff to ensure that we can move forward.
    Ms. Pfleeger, maybe you could comment on this. How does it 
work for FERC or the Nuclear Regulatory Commission I talked 
about not to disclose their timetables? How has the Council 
addressed that problem? Maybe you could talk more generally 
about how the Council addresses issues where agencies are not 
cooperating with FPISC.
    Ms. Pfleeger. We are working very diligently with every 
agency, including FERC, and I think the point that Terry just 
made, now that the quorum is in place, we will be able to 
revisit this issue. That Permitting Dashboard, with all those 
target completion dates, really is vital. It allows the project 
sponsors to plan. It allows the public to understand the timing 
for a project that might affect their area. So in terms of FERC 
specifically, we are looking forward to those conversations 
again.
    As far as all of the agencies go, it has been a learning 
process. How do they use the Dashboard? How do they put 
together a coordinated project plan? And though it is slower 
than you would have liked, we really are coming along now and 
seeing some of the successes. So just even three months ago, if 
you had looked at the Dashboard, compared to today, agencies 
have been trained in how to use the dashboard. We are working 
out some of the tweaks to ensure they can be successful. So I 
am seeing that as each month goes by, we are having successes 
that just build one upon another, and including with project 
sponsors, you are going to start hearing about how it is 
working, because we are seeing it. It is small successes 
building one on top of another, and I hope that you will be 
hearing similarly, because the Dashboard, the agencies, and the 
project sponsors, we are getting there. It took more time than 
we wanted, but we are at a place where I think you will start 
to see how things are working.
    Senator Portman. Well, I appreciate that. This is where the 
rubber meets the road, and I am going to continue to be 
impatient because I think it is so critical to get this in 
place and get it right, in part, frankly, because of the other 
legislative initiatives that were talked about today, and I do 
not think more duplication and even inconsistencies or 
contradictory statutory provisions are going to be helpful, 
because our goal is to get these projects up and going.
    Part of the Permitting Council's charge, as was talked 
about earlier, is to develop best practices, to streamline 
processes. Is that correct?
    Ms. Pfleeger. Yes, that is correct.
    Senator Portman. One of the best practices that has been 
identified is agencies jointly producing documents so that 
duplicative reviews do not have to be conducted by more than 
one agency. That is just sort of a common-sense part of this. 
We learned early on about the duplication and the cost in terms 
of time.
    In the testimony we have gotten today on the Byrd Project, 
we saw that FERC and the Corps were not able to come to an 
agreement and thus likely create that duplication. Why did 
FPISC not step in to push for best practices in this case if 
best practice is to have agencies jointly producing these 
documents? Do you need more authority to do that, to follow 
these best practices? In this particular case, why was FPISC 
not able to get these two agencies to work better together?
    Ms. Pfleeger. So, certainly, yes, that is a vital best 
practice, the joint decisions. I would have to look at the 
exact timing here.
    One of the things I would say is as the project sponsor 
just mentioned in the first panel, with the issuance of the 
FERC license, we are going to be meeting with the Corps to 
carry out our responsibility for FAST-41 oversight, because 
once a quarter they have to review the coordinated project plan 
and the permitting timeline. So we are certainly going to be 
working with them on enforcing the provisions of FAST-41 and 
the best practices and joint decisions, and also using some of 
the tools of the recent Executive Order that are moving toward 
these joint documents.
    So we agree that is the goal, and we need to enforce that, 
and that is the next step.
    Senator Portman. Yes. And, adding Mr. Frazer in here, 
duplicative studies is another issue with the Corps and with 
others, I assume FERC. The idea is to not require that we have 
duplication of studies, and, again, we have heard about this in 
some of these projects, including the Byrd Project.
    A final question that I have is about funding, and all of 
you are free to chime in. I assume Ms. Pfleeger has some 
special insights on this. But, you all have the ability through 
this fee authorization to develop some resources there, and we 
heard from some public-private partnerships here earlier that 
they are willing to do that if they know there is some 
certainty and they are going to actually get faster review that 
way. You are looking at a budget request of $10 million, a 
House appropriations mark of $1 million. You have given our 
Subcommittee some information, which we appreciate, sort of the 
level of service chart, which I mentioned earlier, and you talk 
about what you could do with $4.5 million, what you could do 
with $15 million, and so on.
    Can you just give us today what you have discussed with us 
in private sessions, which is what is the minimal amount that 
you and your people need to be able to comply with the statute 
and actually continue to make the progress we all want to see 
and take it to the next level? What would that number be? What 
do you think is necessary?
    Ms. Pfleeger. The President's budget for Fiscal Year 2018 
reflects the $10 million that we need to fully execute FAST-41, 
and we look forward to the funding that will allow us to use 
every tool that FAST-41 has given us, to work with every agency 
to get those benefits of the efficiencies from best practices. 
The Dashboard enhancements, that is going to be a key thing, to 
make sure we do not just take what the Dashboard has today, but 
we can fund enhancements to it to make it an even more 
important tool for that public transparency and accountability. 
So, yes, the Fiscal Year 2018 President's budget will allow us 
to do that.
    Senator Portman. OK. Are there any further comments from 
the panel before I excuse you all? Any thoughts? Ms. Colosimo.
    Ms. Colosimo. I guess the one thing I would say is that we 
were talking a lot about the law and FPISC and the framework. 
The thing that is most important to me, and that has happened 
before we even got to the implementation guidance process last 
January is that it is really about relationships. We have 
projects up and we are learning lessons, and I think there is a 
lot of goodness there. But I think it is about reconnecting 
across agencies because we have been constrained by resources 
for a long time, so we have been in our own silos.
    I think a lot of the documents matter, but it is knowing 
who to call and how to frame the question and how to try to 
negate those problems through these relationships. I think that 
has been largely successful for all of us. These are complex 
projects on the dashboard, and that is important to remember. 
We do not want all the goodness we do on the routine things to 
go away, but these complex projects require important 
relationships.
    Senator Portman. I think that is an important point, and 
that is what I was saying earlier in terms of the importance of 
each of you and others who are in attendance at the hearing 
today or watching this proceeding. These agencies and the 
people who are in charge of providing the information is what 
is going to sink this or make it succeed. I liked your comment, 
Ms. Pfleeger, earlier when you said that FAST-41 has already 
enabled us to break down--and I will quote you--``agency 
silos.'' You mentioned silos, and that has been one of the 
issues, not just with regard to permitting but with regard to 
other coordination. I think this is a great framework to be 
able to do that. So thank you for your personal commitment to 
this, each of you. And to Ms. Pfleeger, I have told you before 
we appreciate your service and continuing to push hard. I do 
think more certainty and predictability is part of this, and 
that is why we need a permanent Director.
    I want to thank all the witnesses for their testimony. On 
this panel, as you can tell, we have high hopes for this to 
succeed. We have a lot of interest on both sides of the aisle 
to make this not just a law that was important to pass but 
implementation that is actually effective in getting people 
more opportunity to create more jobs, better jobs, not just 
through the construction of these projects but also because 
these projects will lead to a better economy and better wages, 
better jobs. So it is an exciting opportunity as we are 
beginning to talk about infrastructure. I think it is going to 
come back a lot to, as George Voinovich used to say, because he 
was quoted earlier by my colleague Senator Carper, I have to 
quote him, too, because he is from Ohio. But he used to always 
say we are doing more with less. We are not actually talking 
about less. We are talking about some increases in funding 
here, and we have to do more. We have to figure out how to make 
that dollar work as effectively as possible in our budget-
constrained environment.
    So thank you very much for your testimony. We appreciate 
it. Please stay in touch with us. Our team back here is going 
to do some follow up on some of the questions that I asked and 
some of them we did not get to, and we appreciate your 
responses and look forward to continuing to work with you.
    This hearing is now adjourned.
    [Whereupon, at 11:55 a.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
